<html>
<title> - EGG SAFETY: ARE THERE CRACKS IN THE FEDERAL FOOD SAFETY SYSTEM?</title>
<body><pre>[Senate Hearing 106-283]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-283


 
    EGG SAFETY: ARE THERE CRACKS IN THE FEDERAL FOOD SAFETY SYSTEM?

=======================================================================


                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
        RESTRUCTURING AND THE DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION


                               __________

                              JULY 1, 1999
                               __________

      Printed for the use of the Committee on Governmental Affairs


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 59-578 cc                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                  Darla D. Cassell, Administrive Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                  GEORGE V. VOINOVICH, Ohio, Chairman
WILLIAM V. ROTH, Jr., Delaware       RICHARD J. DURBIN, Illinois
JUDD GREGG, New Hampshire            ROBERT G. TORRICELLI, New Jersey
                  Kristine I. Simmons, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                     Julie L. Vincent, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Durbin...............................................     3

                               WITNESSES
                         Thursday, July 1, 1999

Lawrence J. Dyckman, Director, Food and Agriculture Issues, U.S. 
  General Accounting Office, accompanied by Steve Secrist, San 
  Francisco Regional Office......................................     6
Morris E. Potter, D.V.M., Director, Food Safety Initiatives, Food 
  and Drug Administration, U.S. Department of Health and Human 
  Services.......................................................     8
Margaret Glavin, Associate Administrator, Food Safety and 
  Inspection Service, U.S. Department of Agriculture.............    11
Michael F. Jacobson, Ph.D., Executive Director, Center for 
  Science in the Public Interest.................................    25
Jill A. Snowdon, Ph.D., Director of Food Safety Programs, Egg 
  Nutrition Center...............................................    27
Keith Mussman, Co-Owner, Mussman's Back Acres, on behalf of the 
  United Egg Producers...........................................    29
Harold ``Butch'' DeVries, Jr., Vice President and General 
  Manager, Mallquist Butter and Egg Company......................    31

                     Alphabetical List of Witnesses

DeVries, Jr., Harold ``Butch'':
    Testimony....................................................    31
    Prepared statement...........................................   180
Dyckman, Lawrence J.:
    Testimony....................................................     6
    Prepared statement...........................................    41
Glavin, Margaret:
    Testimony....................................................    11
    Prepared statement...........................................    74
Jacobson, Michael F.:
    Testimony....................................................    25
    Prepared statement with and attachment.......................    80
Mussman, Keith:
    Testimony....................................................    29
    Prepared statement...........................................   169
Potter, Morris E.:
    Testimony....................................................     8
    Prepared statement...........................................    55
Snowdon, Jill A.:
    Testimony....................................................    27
    Prepared statement with and attachment.......................   122

                                APPENDIX

``The Incredible Edible Egg, A Natural For Any Foodservice 
  Operation,'' by the American Egg Board, submitted by Ms. 
  Snowden........................................................   151
Food Animal Concerns Trust (FACT), prepared statement............   190
L. John Davidson, Pasteurized Eggs, L.P., Laconia, New Hampshire, 
  prepared statement.............................................   211
Letter from Lawrence J. Dyckman, Director, Food and Agriculture 
  Issues, GAO, dated July 22, 1999, in response to the letter 
  dated July 14, 1999 from Senator Voinovich.....................   217
Questions and responses for Morris E. Potter, from Melinda K. 
  Plaisier, Interim Associate Commissioner for Legislation, 
  Department of Health and Human Services........................   218
Questions and responses for Margaret Glavin, from Thomas J. 
  Billy, Administrator, Food Safety and Inspection Service, U.S. 
  Department of Agriculture......................................   223



    EGG SAFETY: ARE THERE CRACKS IN THE FEDERAL FOOD SAFETY SYSTEM?

                              ----------                              


                         THURSDAY, JULY 1, 1999

                                     U.S. Senate,  
       Oversight of Government Management, Restructuring,  
                 and the District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich and Durbin.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning. Unfortunately, Senator 
Durbin and I--and anybody else who is here--are going to have 
to excuse ourselves around 10:45. We have to go down and cast a 
vote, and we will adjourn the hearing at that time and rush 
back so we can continue with the hearing.
    We call this morning's hearing ``Egg Safety: Are There 
Cracks in the Federal Food Safety System?'' The Subcommittee on 
Oversight of Government Management, Restructuring, and the 
District of Columbia is going to focus on the Nation's egg 
supply and the extent to which the Federal food safety 
infrastructure is adequate or inadequate to ensure that the 
eggs we eat do not pose a health risk.
    I would first like to address the health risk posed by eggs 
which has prompted greater scrutiny of egg inspection 
practices. That risk is Salmonella enteritidis which, for the 
sake of ease, I propose we refer to as ``SE'' for this hearing. 
This bacteria is a relatively new threat, and it was only 
identified as a public health problem in 1988. Apparently, 
there has been a mutation in the Salmonella bacteria, and SE 
can now be passed directly from hens to their otherwise 
healthy-looking eggs.
    According to the Center for Disease Control, not all hens 
infected with SE pass it on to their eggs, and the number of 
eggs thought to be infected is one in every 20,000, or 3.4 
million out of 67 billion eggs produced in this country every 
year. I am sure that there may be some other statistics, but 
those are the ones that we are using.
    This has created a health risk in eating undercooked or raw 
eggs that simply did not exist before. Eating an infected egg 
does not always result in illness. Proper refrigeration limits 
bacterial growth, and cooking eggs at 160 degrees Fahrenheit 
destroys SE. For illness to occur, eggs must be contaminated at 
the farm or during processing and then handled improperly, 
inadequately refrigerated, undercooked, or consumed raw.
    Since the late 1980's, the number of SE cases grew until it 
peaked in the mid-1990's and has declined somewhat since then. 
The Center for Disease Control estimates that in 1997, the last 
year from which accurate figures are available, over 100 deaths 
and 300,000 illnesses were attributable to SE contracted 
through infected eggs. My wife contracted Salmonella when she 
was overseas, and you get very, very sick with it. And so if 
you talk around 300,000, that is 300,000 pretty sick people, 
and we were worried about her.
    The segments of the population most at risk from SE are, of 
course, the very young, senior citizens, and individuals with 
deficient immune systems. Between 1985 and 1998, approximately 
68 percent of deaths attributable to SE occurred among nursing 
home residents. They are the most vulnerable.
    A cursory glance at the current oversight system for egg 
safety would seem to indicate that it is indeed fragmented. The 
question for the Subcommittee is to determine whether the 
fragmentation is affecting the safety of our Nation's egg 
supply. Four agencies within two separate Federal Departments 
have jurisdiction at different times over eggs during the 
production and distribution cycle. There are many specific 
examples of this that will be discussed by witnesses from the 
General Accounting Office and others here today.
    In addition, most of the 50 States split responsibility for 
egg safety between their health and agricultural services, and, 
finally, private industry polices itself. My understanding is 
that the egg industry has taken the threat of SE seriously, and 
has implemented some measures to mitigate the risk. So often we 
think that the only way that we can have good health and safety 
is that it has to be regulated, but I think conscientious 
people that are in the business are doing what they can 
internally to do the job.
    Therefore, it seems to me that there are three important 
questions which we have to answer today. One, from a good 
government point of view, how can the current egg safety system 
in this country be better organized and managed; i.e., can you 
do a better job with all the agencies that are out there? Are 
they doing the job that ought to be done? We will start with 
that.
    Second, do the health risks of SE warrant going in and 
saying that the current system, even if it was improved 
substantially, is inadequate to get the job done, and that we 
should reorganize and combine and so on?
    And last, but not least, are there some short-term things 
that need to be done? In other words, is there, within the 
current framework, something that can be really zeroed in on 
that can deal with this problem and substantially reduce the 
threat of SE?
    Hopefully, we are going to get some answers from the 
witnesses here today. I am sure they have a little different 
point of view, and that is why we have you here.
    I would now like to yield to the distinguished Ranking 
Member of this Subcommittee, Senator Durbin, for an opening 
statement, and I must tell you that if it wasn't for Senator 
Durbin, we wouldn't be here today. He has spoken to me often 
about the importance of this reorganization, and he has been 
here a lot longer than I have and it has been a passion with 
him. Senator Durbin, I am sure you have an opening statement 
that will underscore why you are so concerned about this 
situation.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Chairman Voinovich, for doing 
this, and I believe that your cooperation demonstrates that 
this is truly a bipartisan issue. We are all interested in food 
safety, Democrats, Republicans, Independents alike. And the 
fact that this hearing is taking place clearly indicates your 
level of interest.
    What really precipitated it was this GAO study, and we will 
hear a lot about it today. If you stacked all the GAO studies 
produced each year, it probably would reach the height of the 
Washington Monument. They are important, requested by Members 
of Congress in most instances to look into various problems. 
But, unfortunately, most of them go unread and unheeded.
    This is an exception. It is an exception because we learned 
as late as yesterday, just a few days after this report came 
out, that the administration has announced that it got the 
message, that it is going to start making some dramatic changes 
when it comes to the question of food safety involving eggs.
    I am glad to see that, and I am happy that the Clinton 
administration has been responsive on the food safety issue, 
and I hope that they will stick with us. There is more to be 
done, and I hope that we can continue on a bipartisan basis to 
achieve it.
    Let me say at the outset, before we say anything else, eggs 
are a wholesome, nourishing, and economical food. Let me add 
this: Everyone I have spoken to in the government levels, from 
the agencies as well as the General Accounting Office, has said 
that the people in the egg industry have been cooperative 
throughout this whole effort. That is an encouraging thing, and 
I hope that that spirit of cooperation will continue today not 
only through the hearing but as we talk about ways to improve 
the safety of this important food product.
    Eggs are perishable. They need to be handled with care. And 
perishable products always have a degree of risk, but the risk 
is manageable.
    This issue of foodborne illness when it comes to eggs was 
really dramatized last year by a program on television, 
``Dateline,'' which focused on some things that were being done 
by egg handlers and packagers which, frankly, are unacceptable. 
And I think that this report and this debate and this 
Subcommittee hearing will move us forward, and I want to 
commend the folks at ``Dateline'' for bringing this matter to 
national attention, at least to a higher level of national 
attention.
    Now, make no mistake, America has been blessed with one of 
the safest food supplies in the world. But we can do better. 
Foodborne illness is a significant problem, as the Chairman has 
said. GAO estimates 81 million people will suffer food 
poisoning each year and 9,000 will die. Children and the 
elderly are especially vulnerable. There is a threat from 
emerging pathogens such as Salmonella enteritidis--and I hope 
one of us has pronounced it right, I am not sure; I will call 
it ``SE,'' too, so it gets us both off the hook--which was 
virtually unheard of before the mid-1980's.
    How big a problem is this? Let me show you some headlines 
from the Richmond, Virginia, newspaper. And this is not an old 
story. Unfortunately, it is a new story, June 12, 1999: 
``Salmonella-tainted eggs at a popular restaurant in Richmond, 
Virginia, were determined to be the cause of a recent outbreak 
of foodborne illness that left 7 people hospitalized, 92 with 
documented Salmonella infection, and nearly 200 people claiming 
illness late May,'' according to the Richmond Times-Dispatch. 
The restaurant chain involved here learned their lesson and 
announced when they were reopening that they were going to be 
extremely careful in using pasteurized and processed eggs that 
would avoid Salmonella contamination.
    But that is why this is a real problem. Statistics can be 
pushed back and forth by both sides, but I think everybody 
understands that we want to increase consumer confidence in our 
entire food supply, and certainly when it comes to eggs.
    In terms of medical costs and productivity losses, 
foodborne illness costs the Nation $37 billion a year. The 
Department of Health and Human Services predicts foodborne 
illnesses and deaths will increase 10 to 15 percent over the 
next decade. American consumers spend about $617 billion a year 
on food, $511 billion spent on foods grown here in the United 
States and the rest imported. Our ability to assure that the 
safety of our food and to react rapidly to potential threats to 
food safety are in the forefront of our consideration are 
critical not only for public health but also for the vitality 
of both domestic and rural economies and international trade.
    I would like to address for a moment the issue of consumer 
confidence, and I would like folks to put it in the context of 
what is going on in Europe today. Many of you followed the 
dioxin crisis in Belgium which literally closed down their food 
industry. Days before the national election, eggs, poultry, 
beef, pork, and dairy products were pulled from the shelves in 
Belgium. Countries worldwide have restricted imports of eggs, 
chickens, and pork from the European Union. Part of the 
controversy in Europe is the failure of government to win the 
confidence of consumers. People lose confidence and panic 
unnecessarily when their government doesn't step up to meet its 
responsibilities. From mad cow disease to dioxin, we cannot 
afford to ignore these lessons regarding government's role in 
effectively and efficiently managing food safety.
    A credible Federal food safety system assures consumers and 
makes our products more acceptable here and abroad. Everyone 
shares that responsibility in ensuring food safety--Federal, 
State, Local Government, industry, and us as well, the 
consuming public.
    The administration stepped forward on the issue of food 
safety, and I commend President Clinton and Secretaries 
Glickman and Shalala for their leadership. I want to 
acknowledge as well the list of accomplishments by agencies 
represented by Dr. Potter and Ms. Glavin today. Although in 
today's hearing we will examine egg safety, where much work 
remains to be done, I want to commend the dedication of the 
professionals in both departments and our Federal agencies who 
are committed to improving the safety of the food supply.
    Industry and State Governments also have a record of which 
we can be proud. It is clear the egg industry has stepped 
forward itself and taken the lead in developing such things as 
quality assurance programs. I want to work with the United Egg 
Producers to solve the challenges we face, and I ask for their 
input in developing legislation. How well is our government 
managing the safety of food from farm to table? Currently, the 
Federal food safety system is fragmented with at least 12 
different Federal agencies and 35 different laws governing food 
safety, 28 different House and Senate subcommittees with food 
safety jurisdiction. It is no surprise with this overlapping 
jurisdiction that there is lack of accountability. An example 
of this, of course, is the FDA and USDA regulating eggs, which 
is the focus of today's Subcommittee hearing.
    Last summer, I asked the General Accounting Office to 
evaluate how well the Federal Government was doing. GAO has 
completed the report which I mentioned earlier. It shows gaps, 
inconsistencies, and inefficiencies. What is even more 
disturbing is to discover, in the absence of uniform Federal 
regulation, that States have established their own, creating a 
patchwork of varying regulations. This was a difficult 
undertaking for our staff, but we tried to map each State's 
different egg safety regulations. We couldn't put it all on one 
map. They are so different and so diverse. Marianne, if you 
will show the two different maps, we can get into this later, 
but the State laws are all over the place. And I think it 
argues for a consistent national standard based on good science 
and consumer food safety.
    Later this month, the Subcommittee will have a hearing on 
creating a single independent food safety agency, an idea which 
my colleagues and I have introduced in legislation, the Safe 
Food Act of 1999. But GAO has been unequivocal in its 
recommendation for consolidating Federal safety programs, and 
those recommendations go back perhaps to 1977 or before. This 
has been an issue even before this Subcommittee which goes back 
2 or 3 decades. The fragmented Federal regulatory structure 
remains an obstacle to a comprehensive, consistent, and 
effective food safety and egg safety strategy.
    I welcome the witnesses and their insights. The GAO report 
is excellent, and I thank you for the good work that you put 
into it. In the coming weeks, we will try to develop 
legislation that takes some of your recommendations.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Durbin.
    I think that the public should understand that this 
Subcommittee's title is the Subcommittee on Oversight of 
Government Management, Restructuring, and the District of 
Columbia. Senator Durbin and I have talked about it, and we are 
going to really try and follow up on the responsibilities of 
this Subcommittee and pay particular attention to the GAO 
studies that have been done so that we can get at some of these 
things that for a long time have been just laying on the shelf. 
This Subcommittee's Chairman had several hearings with the 
Department of Energy. The thing that really was striking to me 
is every single year they came back with a report saying there 
is a problem, there is a problem, there is a problem, and 
nothing was done about it. And now we are back at it again. 
Hopefully, that will be taken care of.
    So I think, Senator, that you have raised a real issue, 
something that has been around for a while, and I think we 
ought to attack it and make a decision.
    We are lucky to have such good witnesses here today. First 
of all, I would like to introduce our first panel of witnesses: 
Larry Dyckman is the Director of Food and Agriculture Issues at 
the U.S. General Accounting Office. Good to have you here. Ms. 
Margaret Glavin is the Associate Administrator, Food Safety and 
Inspection Service of the U.S. Department of Agriculture. Dr. 
Morris Potter is the Director of Food Safety, Food and Drug 
Administration, Department of Health and Human Services. Both 
are here, Dr. Potter and Ms. Glavin, on behalf of the 
administration. We thank you for coming, and we look forward to 
your testimony.
    I would like to start out with Mr. Dyckman.

    TESTIMONY OF LAWRENCE J. DYCKMAN,\1\ DIRECTOR, FOOD AND 
AGRICULTURE ISSUES, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED 
        BY STEVE SECRIST, SAN FRANCISCO REGIONAL OFFICE

    Mr. Dyckman. Good morning, Mr. Chairman, Senator Durbin. 
With me today is Steve Secrist from our San Francisco regional 
office. He is a senior evaluator who has been responsible for 
much of the work that I will be talking about today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dyckman appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    We want to thank you again for the opportunity to discuss 
our work on the safety of eggs and egg products. My testimony, 
as you know, is based on a report we are issuing today to 
Senator Durbin. Eggs are an important part of most American 
diets. I might tell you that my wife eats several eggs a day. 
She watches her cholesterol and she eats the egg whites, but 
she enjoys them very much. On average, each American consumes 
about 245 eggs annually. But over the last decade, eggs 
contaminated with Salmonella enteritidis bacteria, which we 
will all refer to as ``SE,'' have increasingly been implicated 
as the cause of foodborne illnesses in the United States. SE 
may have caused about 300,000 illnesses in 1997, according to 
the CDC, resulting in up to 230 deaths. Most SE outbreaks with 
identified causes are linked to eggs.
    The Senator spoke about the case in Richmond. We have been 
in touch with the Virginia State officials, and they have 121 
confirmed cases of illnesses connected to SE infection. And 
they believe eggs are the likely cause of those infections.
    It is important to note at the onset that responsibility 
for ensuring that eggs are safe to eat is shared among four 
Federal agencies and two departments, and often two agencies in 
each State. As the blue exhibit shows, the process begins under 
the authority of USDA's Animal and Plant Health Inspection 
Service, which ensures that egg-laying hens are bred free of 
SE, and continues under the authority of FDA, which is 
responsible for egg safety on farms where eggs are produced. 
That chart is on page 5 of the written testimony. It is also in 
our blue book report if it's difficult to follow for people in 
the room.
    At the processing stage, either FDA or USDA's Food Safety 
and Inspection Service may have authority, depending on whether 
the eggs are sold whole in the shell or broken to create an egg 
product. Shell eggs may also be graded for quality by another 
USDA agency. Once transported to the retail level, both shell 
eggs and egg products are under FDA's authority, but the 
millions of restaurants, institutions, and other retail food 
operations throughout the United States are generally inspected 
by either a State agriculture or health department.
    The number of agencies involved is a key factor in the 
problems documented by our review. Clearly, the egg situation 
is a case study of the cross-cutting and duplicative problems 
that we have reported to this Subcommittee and to many other 
committees in our series on major management problems and 
challenges facing government agencies. It was also reported as 
a major management problem concerning food safety in general in 
our report concerning the Department of Agriculture.
    Our work in this particular review found that neither FDA 
nor USDA requires the egg farms and processing plants under 
their authority to use a prevention-based approach that would 
identify control and monitor known safety risks. Over the last 
few years, the Federal Government has introduced such programs 
referred to as Hazard Analysis and Critical Control Point 
systems in meat, poultry, and seafood processing.
    At the State level, 13 States responsible for about two-
fifths of the Nation's egg production have established 
voluntary prevention-based programs for egg farms. However, 
these programs differ in critical areas such as when and how to 
test for the presence of SE.
    Although refrigeration retards the growth of SE, our work 
found that the first national requirement to refrigerate eggs 
at 45 degrees or colder from the time they are packed until 
they reach the consumer may not, for a variety of reasons, 
effectively reduce safety risks. The responsibility for 
implementing and enforcing the requirements will be split 
between USDA and FDA. USDA has issued regulations which will 
take effect later in August requiring that eggs be refrigerated 
during storage and transportation. We found out today, 
actually, that FDA is in the process of proposing regulations 
for retail locations, restaurants, and grocery stores, and we 
are encouraged by that. We haven't seen them yet, but it is 
good to hear that they are on their way.
    In addition, many experts believe that safety risks could 
be better reduced by controlling eggs' internal temperature. 
The regulations will focus on air temperature rather than on 
the internal temperature. Yet eggs are often in the 70- to 80-
degree range when they are processed and packed, and it may 
take up to 6 days before the internal temperature is reduced to 
the air temperature in the cooler.
    Our work also found inconsistent policies and practices in 
three other areas. Certain groups, including the elderly in 
nursing homes, are more likely to suffer severe health 
consequences from eating contaminated eggs. Yet only about half 
the States have followed FDA's recommendation that they require 
food service operators to use pasteurized eggs or egg products 
when serving vulnerable populations.
    Also, Federal policies allow some eggs, as we have learned 
from the ``Dateline'' news show, to be returned from grocery 
stores for processing to be repackaged, re-dated, and returned 
to the retail level for sale. Moreover, Federal rules on how 
expiration dates are used on eggs vary considerably.
    Finally, we found that the involvement of the four Federal 
agencies enforcing a variety of laws make it difficult to 
direct resources to the greatest safety risk or to effectively 
coordinate egg safety policies. For example, USDA by law 
provides daily full-time inspection of plants where eggs are 
pasteurized to kill harmful bacteria, whereas FDA almost never 
inspects egg farms where eggs can be contaminated.
    Mr. Chairman, in your invitation to me, you posed a 
question, and I would like to answer that question right now, 
and the answer is: Yes, the Federal food safety program for 
eggs is cracked, disjointed, it is duplicative, and it is not 
always risk-based. We are offering some recommendations that we 
think will address those problems.
    First, to address the need for a consistent farm-to-table 
approach to egg safety, the report we are issuing today asks 
the Congress to consider consolidating responsibility for egg 
safety in a single Federal Department.
    We are also recommending: First, that FDA develop a model 
prevention-based program for egg farms and processing plants 
which States can adopt to reduce the risk of SE contamination; 
second, that the USDA develop regulations that would require 
prevention-based programs at plants where egg products are 
processed; and, third, that USDA and FDA jointly study the cost 
and benefits of implementing rapid cooling techniques in egg 
processing and packaging operations.
    In commenting on our draft report, USDA and FDA generally 
agreed with our recommendations. We would be happy to answer 
any questions you or Senator Durbin have.
    Thank you.
    Senator Voinovich. Thank you very much.
    I would like to remind the witnesses that their entire 
statements are going to be entered into the record, and to the 
best of their ability, if they could limit their statements to 
5 minutes, it would be most appreciated.
    We will now call on Dr. Potter for his testimony. Dr. 
Potter?

TESTIMONY OF MORRIS E. POTTER, D.V.M.,\1\ DIRECTOR, FOOD SAFETY 
 INITIATIVES, FOOD AND DRUG ADMINISTRATION, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Potter. Thank you, Mr. Chairman, and Senator Durbin. I 
am Morris Potter, Director of Food Safety Initiatives at the 
Food and Drug Administration, and I am pleased to be here with 
my colleague, Maggie Glavin, from USDA to testify on the 
government's role in the oversight of egg safety and to 
describe how we have applied science to protect the public's 
health.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Potter appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    HHS, USDA, and the States have a long history of working 
together to understand and initiate actions along the farm-to-
table continuum to reduce the risk of SE. Federal surveillance 
and research efforts have been critical to our better 
understanding of SE and efforts to develop science-based 
control schemes from farm to table.
    In the early 1980's, routine public health surveillance 
identified SE as a growing public health problem, as you see in 
the first part of that upper figure. In 1986, outbreak 
investigations linked this growing problem to contaminated 
whole shell eggs. FDA, CDC, ARS, APHIS, and AMS immediately 
responded by working together and with State Governments, 
universities, and the egg industry to conduct research and to 
put into place prevention and control mechanisms as that 
information developed.
    To control a public health problem like SE in eggs, one 
must first understand it. Surveillance of human illness, 
laboratory research at ARS, FDA, and universities, and field 
investigations have all been essential to that understanding. 
Data from CDC's Salmonella surveillance system show that SE 
infections increased more than 8-fold from 1976 to 1996, as you 
can see by making a composite of that top--the lines in the top 
figure.
    Another valuable data source early in the outbreak was the 
surveillance of outbreaks of infections with SE. States 
reported 26 SE outbreaks in 1985 when that surveillance system 
started. By 1990, the number of reports had increased to 85. 
There were strong regional differences in the number of 
outbreaks just as the chart reflects strong regional 
differences in the number of infections.
    Many SE outbreaks have been attributed to food served in 
commercial establishments, such as restaurants, hospitals, 
schools, nursing homes, and most were associated with food that 
contained undercooked eggs. Most deaths linked to reported 
outbreaks have occurred among the elderly in hospitals and 
nursing homes.
    These two characteristics, the association with undercooked 
eggs and commercial establishments, emphasized the importance 
of nationwide adoption and enforcement of FDA's Food Code which 
first focused attention on proper egg handling in 1990. The 
Food Code contains special guidance for food handling in 
institutions to try to reduce the risk particularly for those 
vulnerable populations. The Federal agencies have collaborated 
on a number of additional efforts to improve institutional food 
service handling of eggs.
    In addition to epidemiology, our public health response to 
SE in eggs has relied heavily on laboratory science and field 
investigations. Design of on-farm control programs required 
understanding the organism and its mechanism of action as well 
as comprehending the natural history of SE's introduction, 
spread, and persistence in the environmental of a laying house.
    Universities, States, and industry have conducted many of 
the field studies. Since October 1995, FDA has traced eggs from 
12 outbreaks back to flocks of origin, additionally leading to 
field investigations of 112 laying houses in 9 States.
    Various control programs have been tried showing that 
combinations that include the use of uninfected replacement 
birds, rodent control, cleaning and disinfection between 
flocks, and environmental monitoring will reduce the incidence 
of infected flocks. Controlling SE during production is crucial 
in mitigating the risk of SE in eggs.
    Research in this area is being conducted by both FDA and 
ARS to uncover all important sources of the SE problem and to 
develop ways to maintain SE-free laying hens. As additional 
studies are completed, we will be able to determine more 
precisely which factors are critical and what performance 
standards must be met for optimal public health protection. Our 
ability to now move forward on a comprehensive program for 
improving the safety of eggs is a direct result of the 
investments in research during the past several years.
    We can also use surveillance to track the public health 
progress we are making to control SE in eggs. As you see in the 
chart, SE infections have been dropping since 1996, especially 
in the Northeast where control efforts began first and have 
been most intense. The data also indicate a downturn in 
commercial establishments and the average size of outbreaks.
    In 1995, FDA, CDC, FSIS, and five State health departments 
began a collaborative project or program called FoodNet to 
collect more precise information on the incidence of foodborne 
disease. FoodNet recently reported a 44 percent decrease in the 
infection rate for SE from 1996 to 1998 in the areas of the 
country under surveillance, and you see that in the bottom 
figure there on the chart.
    Collectively, these systems report substantial decreases in 
SE during the past 3 or 4 years. We believe that these data 
show that the coordinated efforts of all of those involved in 
the farm-to-table handling of eggs contributed to this dramatic 
decrease in illness, including Federal agencies, State 
governments, the egg-producing industry, retailers and food 
service, and consumers. Federal and State efforts to trace back 
from outbreaks to infected flocks and to establish egg quality 
assurance programs that include microbiological testing and 
diversion of eggs from infected flocks to pasteurizing plants 
have been important factors in this reported decrease, and we 
will continue to work collaboratively to further reduce the 
prevalence of SE in laying hens.
    But just as these data on the chart demonstrate progress in 
the control of SE, they also document a very large public 
health challenge that remains to be overcome. We need to finish 
the job we started for the public. The joint FSIS-FDA risk 
assessment made it clear that all of the steps from the farm to 
table can contribute to egg safety, and we will consider all 
possible measures to achieve our public health goals.
    As you know, FDA has been working on a proposed rule to 
address refrigeration and labeling of eggs that is consistent 
with the requirements of the FSIS rule. FDA's proposed rule was 
put on public display today. It proposes requirements that all 
shell eggs be stored and displayed at temperatures of 45 
degrees or less, and it would cover shell eggs both in 
interstate and intrastate commerce. It proposes safe handling 
statements on the labels of shell eggs.
    In addition, the President's Council on Food Safety will 
create within 120 days a farm-to-table approach for addressing 
SE in eggs. This will be part of the Council's overall 
strategic plan for food safety that should come out early next 
year.
    Information from recent research, the joint FDA-FSIS 1998 
Salmonella Risk Assessment, and the comments we received on the 
joint FDA-FSIS ANPR of May 19, 1998, intended to identify farm-
to-table actions that will decrease the risk of SE in shell 
eggs will be used by the task force to help finalize its 
recommendations for a strategic plan for a comprehensive system 
for the safety of eggs and egg products.
    Mr. Chairman, there clearly are complex lines of 
jurisdiction over eggs between FDA, FSIS, and AMS. Those lines, 
however, are not cracks in the system but seams. We have a long 
history of coordinated effort to address the public health 
challenges we face in SE in eggs. Much has been done to address 
those challenges but more, indeed, is needed. We are committed 
to provide the country with a seamless coordinated farm-to-
table policy.
    Thank you very much.
    Senator Voinovich. Thank you, Dr. Potter. Ms. Glavin.

TESTIMONY OF MARGARET GLAVIN,\1\ ASSOCIATE ADMINISTRATOR, FOOD 
 SAFETY AND INSPECTION SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Glavin. Mr. Chairman and Senator Durbin, I am Margaret 
Glavin, the Associate Administrator of the Food Safety and 
Inspection Service. I am pleased to appear with Dr. Morris 
Potter, my colleague from FDA, to discuss the safety of eggs 
and egg products in general, and specifically to discuss the 
egg products inspection program of the Department of 
Agriculture. Because several agencies at USDA play a role in 
egg safety and regulation, I am joined today by Michael 
Holbrook of the Agricultural Marketing Service, Dr. Jane Robens 
of the Agricultural Research Service, and Dr. Thomas Myers of 
the Animal and Plant Health Inspection Service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Glavin appears in the Appendix on 
page 74.
---------------------------------------------------------------------------
    Let me begin by emphasizing USDA's commitment to improving 
the safety of the food it regulates--meat, poultry, and egg 
products. Over the past several years, USDA has implemented a 
strategy for change that emphasizes the need to prevent food 
safety problems before they happen and the need to address food 
safety hazards all along the farm-to-table chain.
    FSIS has a long history of inspecting meat and poultry 
products, but the agency's involvement in egg products 
inspection is relatively new. The USDA Reorganization Act of 
1994 set the stage for FSIS involvement in egg products 
inspection by transferring this responsibility from the 
Agricultural Marketing Service to the Food Safety and 
Inspection Service.
    Under the Egg Products Inspection Act, FSIS is responsible 
for continuous Federal inspection in plants processing liquid, 
frozen, and dried egg products. During fiscal year 1998, 102 
FSIS inspectors monitored operations at 73 egg product plants 
across the country. We also have cooperative agreements with 
six States to provide inspection of egg products. Additionally, 
FSIS oversees the importation of egg products into the United 
States.
    I understand the concerns of the current statutory 
framework for egg safety presents a fragmented system of 
oversight. I do, however, want to make two points: First, that 
USDA activities regarding shell eggs and egg products go beyond 
FSIS--and that is what my chart indicates--and any effort to 
adjust the current statutory framework for egg safety should 
consider the broad range of activities carried out by the 
Department.
    The second point--and it echoes Dr. Potter's remarks--is 
that FSIS and FDA, which share statutory authority for egg 
safety, have worked closely together and are making progress in 
developing a coordinated approach to the problem of SE in eggs 
and egg products.
    Let me first address the broad range of USDA activities 
beyond FSIS by providing a few examples. The Agricultural 
Marketing Service administers a voluntary grading program for 
shell eggs and is responsible for the shell egg surveillance 
program. AMS last year announced a prohibition on the 
repackaging of eggs packed under its voluntary grading program 
while it studied the issue further, and that agency is now 
working on a proposed rule to address this matter more fully.
    The Animal and Plant Health Inspection Service conducts 
activities related to animal health, and several of its 
activities have a public health impact by reducing the risk of 
disease in layer flocks. For example, APHIS administers the 
National Poultry Improvement Plan, which certifies that poultry 
breeding stock and hatcheries are free from certain diseases.
    The Agricultural Research Service and the Cooperative State 
Research, Education and Extension Service carry out needed food 
safety research that helps us to improve the safety of eggs and 
egg products. And USDA agencies play a role in educating 
consumers about the safe handling of eggs.
    FSIS has developed numerous publications on egg safety and 
uses a variety of networks to get this information to the 
grass-roots level, including the network of the cooperative 
extension agents throughout the country.
    Regarding the second point, that FSIS and FDA are working 
together to address the problem of SE in eggs and egg products, 
I would like to provide two examples. In May 1998, FSIS and FDA 
jointly issued an Advanced Notice of Proposed Rulemaking to 
initiate a comprehensive and coordinated process of addressing 
the problem of SE in shell eggs and to solicit input from the 
public on the strategies. And FSIS and FDA have conducted a 
joint quantitative farm-to-table risk assessment on SE in eggs 
that was released last summer. The risk assessment is helping 
us to better evaluate interventions in terms of their public 
health impact as we further develop our food safety strategy 
for shell eggs and processed eggs.
    These joint initiatives complement and provide a framework 
for other initiatives taken by FSIS. For example, in August 
1998, FSIS published a final rule to implement the requirement 
for the refrigeration and labeling of shell eggs that were 
mandated by the 1991 amendments to the Egg Products Inspection 
Act, and FSIS is now developing a proposed rule that would 
address HACCP for egg products.
    For the future, more progress is needed, and to facilitate 
that progress a strategic plan for shell eggs and egg products 
is being developed by the strategic planning task force of the 
President's Food Safety Council. It will be completed within 
120 days and will parallel the broader strategic planning 
effort that is already underway by the Council.
    We have certainly not won the war against foodborne illness 
by any means, and eggs remain a major source of SE illness. But 
the steps we have taken with HHS are making a difference, and 
we are committed to further progress.
    This concludes my testimony, and I thank you for the 
opportunity to be here today with FDA to discuss the safety of 
shell eggs and egg products.
    Senator Voinovich. Thank you very much. We decided, in 
order to move the hearing along, that Senator Durbin will go 
and vote, and I will ask my questions, and when he comes back, 
he will ask his, and hopefully they will not be the same 
questions.
    Obviously, the General Accounting Office feels that the 
organizational structure leaves something to be desired, and I 
would like to call on Mr. Dyckman. You have heard the 
testimony, and I would like to have you comment on what you 
have heard this morning. Does that color your judgment on this 
matter?
    Mr. Dyckman. I appreciate the opportunity, Mr. Chairman.
    Egg safety is a microcosm of food safety. We have been on 
record for many years, as Senator Durbin pointed out, 
supporting consolidation of all food safety efforts in the U.S. 
Government. And if we had our druthers, that would occur and 
egg safety would be part of that consolidation. We recognize 
that there are political, social, economic, and other kinds of 
implications of doing that, and it may take time before that 
occurs, if it ever occurs.
    In the interim, we have known about the problem with egg 
safety for 11 years. We reported in 1992 that there is a need 
for a much better, closely coordinated effort, a common 
strategic plan for egg safety. I am encouraged and heartened 
that either the work that we have done or maybe it is just time 
that the two primary agencies are coming together and seemingly 
working for that plan. However, look at our food chart up 
there; it took me quite a while to understand this chart. This 
review has been my first exposure to egg safety, and I kept 
asking my staff, now, let me get this straight: Why does FDA 
have responsibility on the farm? Why does Agriculture have a 
responsibility for the egg product plants? Who has 
responsibility for refrigeration at this point and at that 
point? Why do they have differing labeling requirements? Why 
aren't there HACCP-like procedures, HACCP-like systems required 
at different points? Why isn't the entire system risk-based?
    And while I am encouraged by what I hear today, GAO still 
believes that there is a need to consolidate egg safety 
responsibilities in one Federal agency.
    Senator Voinovich. And that is just one of the things. You 
are basically recommending that we have food safety 
consolidation, period, and that one of the reasons is the issue 
of egg safety, but there are many other areas that you feel 
could be better addressed if you had a consolidation of those 
agencies.
    Mr. Dyckman. That is correct. If there was one agency that 
had budgetary authority over the Federal Government's food 
safety programs, one agency that had authority or one official 
that had authority over the research that is done on food 
safety, I think it would be a lot more efficient. I think we 
would be able to accomplish more as a agency, as a country.
    Now, we have among the safest food safety systems in the 
world. But I think we can accomplish more and it would be a 
much more efficient system if there was one Federal agency that 
had all responsibility for food safety. I understand you might 
be having a hearing on that later this month, and we would be 
happy to help you with that hearing.
    Senator Voinovich. From your observations, what role should 
the States be playing in this?
    Mr. Dyckman. In egg safety?
    Senator Voinovich. Yes.
    Mr. Dyckman. I think it is quite clear that at the retail 
level in particular, and also at the farm level, the Federal 
Government doesn't have the resources to police, to monitor all 
establishments or even a large fraction of the establishments. 
I think the Federal Government has to set minimum policies and 
then allow States to develop a more stringent or equal to 
Federal minimum policies, whether it is a HACCP-type program at 
the farm level or a HACCP-type program at the shell egg 
processing plants.
    Obviously, many States are moving in that direction. We 
noted that there are 13 States that have some type of HACCP-
type program. We are encouraged by that. Some of those are 
relatively new, so it is a little too early to evaluate their 
effectiveness. States want to work, I believe, as equal 
partners with the Federal Government, and I think that is the 
way it should be.
    Senator Voinovich. In your report are you specific in terms 
of the responsibilities that the Federal Government would have 
and where the States' responsibilities would be?
    Mr. Dyckman. Our report mentions the States' 
responsibilities. It doesn't go into a lot of detail in terms 
of how they should interplay with the Federal Government in the 
future. Clearly, regarding our recommendation for the Federal 
agencies to come up with a HACCP-like program or requirement 
and model for the farms and for the egg-processing plants, 
there will have to be a partnership on the State level to 
enforce that because the Federal Government will never have 
enough resources to enforce it.
    Senator Voinovich. So what you are saying is that there 
definitely is a role for the States to be playing.
    Mr. Dyckman. An equal role, a very strong role. And, a lot 
of this commerce is interstate commerce where the Federal 
Government has a clearly defined role. Where it is intrastate 
commerce, obviously the States generally have a much stronger 
role and the upper hand.
    Senator Voinovich. In your report, did you note any State 
out there that--you referred to 13 States that have started 
HACCP programs. Is there a ``best practice'' State out there?
    Mr. Dyckman. I will ask Steve to comment on that.
    Senator Voinovich. Yes.
    Mr. Secrist. I think Pennsylvania--back in the early 
1990's, Pennsylvania was part of a pilot project along with the 
Animal and Plant Health Inspection Service to look at SE 
reduction measures, and then that pilot project ended, but it 
became what is now the Pennsylvania Egg Quality Assurance 
Program, and that was one of the first, probably the first 
comprehensive SE reduction program at the State level. And 
subsequent to that, other States have adopted similar measures. 
California and some of the other states that we have mentioned 
have taken elements of that plan and developed their own plans. 
Pennsylvania would be a good model to look at.
    Senator Voinovich. Well, as a former governor and chairman 
of the National Governors Association, one of the things that I 
always felt could be improved was the relationship between the 
Federal Government and State Government in this whole 
regulatory area, and that the idea of sharing best practices, 
getting the directors of the Agriculture Departments together 
to talk about best practices, to see if you couldn't cascade 
them throughout the country, would be a good idea. I think that 
perhaps coming out of this we could be in touch with the 
Governors Association to see if we couldn't improve their 
coordination, since at least you acknowledged that they have a 
role to play here. And I would be interested also, Dr. Potter 
and Ms. Glavin, in your opinion of that.
    We have heard an argument, and it has been around, on 
reorganization. Why not? The system that we have currently--can 
it get the job done?
    Ms. Glavin. Our focus at this point is very much on 
identifying those actions which would include such things as 
regulation and research that need to be done in order to 
improve egg safety, and we are focused on that rather than on 
the organizational issue at this point. We think there is a lot 
to be done and a lot that can be done even under the existing 
structure.
    Mr. Potter. Just to amplify that, I absolutely agree with 
what Maggie said, but each of the Federal agencies brings to 
the mix its own set of skills that are garnered over the years 
due to its involvement in all of the things that it does in 
addition to its specific role in the farm-to-table pathway of 
eggs. And our efforts to pull together that expertise and those 
resources, the intellectual capital of the Federal agencies to 
bring to bear on a problem I think has shown itself valuable. 
We are committed to a single food safety framework, and I think 
that the collaboration among the agencies is starting to show a 
measure of progress in achieving our public health goals.
    There is a strong role for States in food safety for a 
number of reasons. As GAO pointed out, there is a great 
resource issue for the Federal agencies to get out to 
individual establishments, be they producers or restaurants, 
but also there is a relationship, as you know, that builds up 
between the State agencies and the producers and businesses in 
the States that can help facilitate communication and speed 
adoption of good practices.
    Senator Voinovich. I am going to have to excuse myself, and 
hopefully Senator Durbin will return to the hearing and he will 
bring it back into session. But when I get back, I would like 
to hear from both of you. We do have the Results Act, and you 
have performance plans that you have put together, and I would 
be interested to know how much coordination in this particular 
area has gone on between your two respective agencies. I will 
be back.
    [Recess.]
    Senator Durbin. If we could ask everybody to resume, I am 
going to try to pick up where Senator Voinovich left off. Thank 
you very much, and I apologize for the interruption. But we had 
a vote on the floor, and Senator Voinovich will be back very 
briefly.
    I tried to ask my staff to recount briefly the Chairman's 
questions, and I hope I don't go over the same ground. I 
apologize if I do.
    I would like to ask the GAO and other witnesses present if 
they will bear with me for a minute, or 2 minutes, maybe, to go 
through a primer so that we understand what we are talking 
about here.
    It is my understanding that this contamination, this SE 
contamination, can be detected in chickens before the eggs are 
laid. Is that true?
    Mr. Dyckman. Yes.
    Senator Durbin. All right. It is also my understanding that 
the incidence of this contamination in eggs depends on a 
variety of factors. One of them, of course, is whether it was 
initially contaminated, which we will assume for a moment that 
is a possibility. The other is the age of the egg. Is that not 
true?
    Mr. Dyckman. That is correct.
    Senator Durbin. And what kind of standards have you found 
in your investigation in terms of the vulnerability of an egg 
to contamination? Can you give us any standard?
    Mr. Dyckman. What we have found is that there is no HACCP-
based system at the farm level in the production of the eggs 
and also at the processing plants. It is not really a risk-
based system. Now, some farms obviously do follow better 
sanitary practices than others.
    Senator Durbin. My question wasn't clear. What I am asking 
for is on the age factor. How old is an old egg? When do you 
start getting into the time frame of an egg's age where it is 
more susceptible to contamination?
    Mr. Dyckman. First, let me say at the onset I am an 
accountant, not a scientist, but if you will bear with me, I 
think it is about 21 days or so.
    Senator Durbin. That it is more susceptible to 
contamination. Now, I read 30 to 45 days in the report.
    Mr. Secrist. There has been some scientific research that 
has been done that shows that at least in that research study 
they may have a natural protection against SE replicating, 
growing in the egg for perhaps up to 21 days. That is under 
certain conditions, assuming that the SE is deposited in the 
egg white and that it is under a certain temperature.
    What we have found in terms of expiration dating was that 
there currently are no Federal standards for expiration dating 
on egg cartons and that AMS under the voluntary grading program 
only requires a 30-day expiration date if the producer decides 
to use a date. They are not required to use a date, but if they 
do, it cannot be over 30 days. Otherwise, you can put any 
expiration date you want on an egg carton.
    Senator Durbin. When do you start counting? When is the 
first day? Is it the day that the chicken lays the egg?
    Mr. Secrist. It is the date that the eggs are packed.
    Senator Durbin. So there could be a period of time between 
the chicken laying the egg and their arrival at the packing 
house?
    Mr. Secrist. Yes, there could be.
    Senator Durbin. Do you have any idea what range of time we 
are talking about? Is it a matter of 24 hours or days or 
longer?
    Mr. Secrist. That probably varies. There are obviously in-
line operations where the egg farm is co-located with the 
packing plant, and the eggs are coming into those plants very 
quickly. It is also possible that eggs might be produced and 
shipped to the packing plant and that could take some time.
    Senator Durbin. So the question of expiration, 
susceptibility to contamination, you really have to start off 
with some basic understandings and agreement. When are we going 
to start counting and how long will we count? Would there be 
disagreement from FDA or USDA on any of the points that have 
been made so far?
    Mr. Potter. I think only a point of clarification, not a 
point of disagreement, and that is that the eggs are 
contaminated before they are laid, and what we are really 
debating here is opportunities for growth of organisms that are 
already there rather than the contamination itself.
    Senator Durbin. Do you have a time frame where you think 
they are more likely to have this growth of contamination, age 
of an egg?
    Mr. Potter. The growth of the organism occurs after the 
yolk membrane breaks down, which is a function of both time and 
temperature. So as the eggs are colder and fresher, there is no 
growth. Where precisely--whether it is 21 days or 30 or 45 
days--would be modified by the temperature the eggs are kept.
    Senator Durbin. And has either the FDA or the USDA 
established a standard for when we start counting, how many 
days, age of an egg?
    Ms. Glavin. As Mr. Dyckman indicated, the grading service 
counts from the day of packing for expiration. That is for eggs 
that are graded by USDA.
    Senator Durbin. And what is your experience in terms of how 
many days between the egg being laid and it being packaged?
    Ms. Glavin. Again, I would agree with Mr. Dyckman that 
varies depending on the kind of process that is used.
    Senator Durbin. So if we are going to give the consumer 
some peace of mind here and say, now, after 30 days you ought 
to think twice about cooking with that egg, we better start by 
understanding among ourselves, at government agencies, when we 
are going to start counting. If you start counting at the 
packing plant, there is no telling how old that egg is when it 
is packed. Is that not true?
    Let's talk about temperature for a minute, and that is 
another element here. If the egg is kept at a certain 
temperature, the likelihood of this contamination and outgrowth 
is diminished. Is that true?
    Mr. Dyckman. Yes, 45 degrees seems to be the temperature 
that scientists tend to agree will prevent further growth of 
SE.
    Senator Durbin. Well, I would like to follow up on that for 
a moment, if I might. The testimony of Dr. Potter is that there 
is some seamless--your word--relationship and coordination 
between the USDA and the Food and Drug Administration. Let's 
talk about the seam.
    In 1991, by legislation, we instructed your departments to 
come up with standards when it comes to the temperature of 
eggs, how they are going to be stored and maintained in order 
to protect public health. I would have to say by virtually any 
measure that both agencies failed in meeting that statutory 
responsibility to the point in 1998 where Congress had to put 
in your appropriation bill a mandate which said you are going 
to lose $5 million if you don't finally come out with this rule 
on the temperature of eggs. And so 8 years after Congress gave 
the responsibility to your agencies, that rule was finally 
issued. Is that true?
    Ms. Glavin. Yes, sir.
    Senator Durbin. Why did it take 8 years, a pretty wide seam 
by anyone's interpretation, for the rule to be issued?
    Ms. Glavin. Well, as you said, the law was passed in 1991, 
and at that time the responsibility was with the Agricultural 
Marketing Service, and they issued a proposal to implement the 
rule, the 45-degree rule, in 1992. Shortly after that, there 
were a number of legislative proposals to change that law, to 
make changes in it, which somewhat complicated the issue. In 
1994, the Reorganization Act was passed, and in 1995, 
responsibility for egg products inspection passed to the Food 
Safety and Inspection Service. And as you indicated, our 
appropriations in 1998 told us we better get this regulation 
finalized, and we did do so in 1998.
    I think it is important to recognize that we were not 
sitting on our hands all that time, although I can't disagree 
that it was a very long period of time. We did put together a 
joint Advanced Notice of Proposed Rulemaking with FDA setting 
out a strategy for dealing with egg safety and also seeking 
data, mainly from the industry, on which we could make good, 
sound judgments about how to regulate in this area.
    We also completed the first ever risk assessment on 
bacteria in foods, and that was the SE risk assessment, and 
that has served us very well as we have moved forward.
    Senator Durbin. So it took 8 years.
    Ms. Glavin. Yes, sir.
    Senator Durbin. Eight years for the U.S. Department of 
Agriculture to finally conform to the requirement by Congress 
to establish some standard about the temperature of eggs. But 
the story doesn't end there because the USDA responsibility, 
because of this fractured jurisdiction, stops, does it not, at 
a certain point when it comes to the temperature of eggs? And 
what is that point in the process?
    Ms. Glavin. Well, the responsibility--or the regulation 
based on the legislation is for the temperature of eggs during 
storage and transportation.
    Senator Durbin. So you are not talking about when it 
reaches the store or the restaurant or anything of that nature?
    Ms. Glavin. It is until it reaches the store or the 
restaurant, yes.
    Senator Durbin. OK. And so at that point, we have a hand-
off here to a new Federal agency, the Food and Drug 
Administration. Now, they are going to take over the question 
of the temperature of eggs after the USDA is finished. Is that 
correct, Dr. Potter?
    Mr. Potter. That is correct.
    Senator Durbin. Now, you have known for 8 years this was 
coming, and so what has the FDA done? What rule have you 
promulgated to talk about the temperature of eggs once it has 
reached this point of transportation to the end user?
    Mr. Potter. Well, that proposal is on display at the 
Federal Register now. It is out and it conforms to the 
temperature and labeling requirements of the eggs as they come 
to that pass-off.
    Senator Durbin. So you don't have an FDA final rule even 
after 8 years?
    Mr. Potter. That is correct.
    Senator Durbin. Now, there is another thing that I want to 
get to, and that is, you mentioned 45 degrees, but there is 
some confusion here as well. Are you familiar with your Food 
Code?
    Mr. Potter. Yes.
    Senator Durbin. What is it?
    Mr. Potter. The Food Code requirement is for 41 degrees----
    Senator Durbin. Just in general, what is the Food Code, for 
the record?
    Mr. Potter. Oh, I am sorry. The Food Code is a model code 
for adoption by States that sets uniform standards across the 
country.
    Senator Durbin. Voluntary for each State.
    Mr. Potter. Right.
    Senator Durbin. And how many States have passed it or 
enacted this Food Code?
    Mr. Potter. At present, 14 States have adopted it, and an 
additional 22 are in the adoption process.
    Senator Durbin. And so when we look at this Food Code, we 
keep talking about 45 degrees. We look at the act which you 
have sent out to the States in terms of standards, and do we 
find 45 degrees is the standard?
    Mr. Potter. Well, remember that the Food Code is for all 
foods and all pathogens. For some pathogens, like Listeria, 
that grow at slightly lower temperatures than Salmonella, a 
lower temperature is more appropriate. But restaurants and 
other food service establishments are unlikely to have one 
refrigerator for things for Listeria and another for 
Salmonella.
    Senator Durbin. That is right. So what is the standard in 
the Food Code?
    Mr. Potter. The standard for retail is 41 degrees. 
However----
    Senator Durbin. Forty-one degrees. Go on. Internal 
temperature.
    Mr. Potter. That is refrigerator temperature.
    Senator Durbin. Forty-one degrees internal temperature for 
the eggs is your Food Code standard, and the standard we have 
been discussing here is 45 degrees air temperature.
    Mr. Potter. I believe the Food Code requirement is 41 
degrees ambient temperature. In other words, that would be the 
refrigerator temperature setting.
    Senator Durbin. We had a different reading on it, but let's 
assume that it is 41 degrees under any standard. Think about 
this for a second. Think about what we have just discovered. In 
1991, Congress passed a law and said to the USDA and the FDA: 
We think the temperature of eggs is important to protect 
American consumers; please write some rules so that we can 
understand how to transport eggs, how to store eggs, so that we 
can best protect American consumers.
    Eight years pass and only when Congress says in the USDA 
appropriation, if you don't finally do your job, you are going 
to lose $5 million this year, they do it. They issue it. The 
Food and Drug Administration, which is supposed to pick up the 
baton after the transportation, then decides they have got to 
do it, too. Now we are waiting to see when that rule becomes 
final, and in the process, we find that at least there is some 
ambiguity, if not inconsistency, in the standard we get from 
these two agencies: 45 degrees, 41 degrees, voluntary, 
mandatory.
    Is it any wonder that we have this GAO report which 
questions whether these agencies are conducting a ``seamless 
coordination''? I think it is pretty clear that there are some 
seams and they are pretty wide.
    Let me talk about some other things that I think need to be 
talked about. Repackaging. The U.S. Department of Agriculture, 
after the ``Dateline'' story, came out--and I am glad they 
did--and said for the eggs that we grade there is a prohibition 
against taking old eggs off the shelf, bringing them back to 
the plant, packaging them with new eggs, for obvious reasons: 
Older eggs, more susceptible to contamination.
    What percentage of the eggs sold in America are graded by 
the U.S. Department of Agriculture?
    Ms. Glavin. I believe it is about 30 percent.
    Senator Durbin. Thirty percent. That is the figure that I 
have, too. So we now have a standard from the U.S. Department 
of Agriculture for about a third of the shell eggs that are 
sold in the United States, and virtually no standard, at least 
no Federal standard, no national standard, when it comes to all 
other eggs. Is that correct?
    Ms. Glavin. That is correct.
    Senator Durbin. Another indication of why we need to start 
talking about a national standard. If it is dangerous to a 
consumer not to know that they are buying a dozen eggs that 
might have a variety of different ages, dangerous enough for 
the USDA to issue a standard, then certainly it raises a 
question about why this danger shouldn't be a matter of concern 
nationwide in terms of what we accomplish.
    Let me also, if I can, visit for a second this question of 
APHIS, the Animal and Plant Health Inspection Service. They are 
involved in the inspection, if you will, of the actual farms 
where the eggs are being produced. Is that correct?
    Ms. Glavin. They are responsible for something called the 
National Poultry Improvement Plan which has to do with the 
health of the laying flock, yes.
    Senator Durbin. OK.
    Ms. Glavin. The breeding flock, I am sorry.
    Senator Durbin. The breeding flock. And you can test these 
chickens to determine whether or not they are contaminated with 
Salmonella. Is that correct? But there is no requirement that 
you test them under the law, is there?
    Ms. Glavin. No.
    Senator Durbin. So this is all voluntary.
    Ms. Glavin. Well, for----
    Mr. Myers. It is voluntary, but for interstate movement or 
international movement, that is required.
    Senator Durbin. So, again, eggs that are moving between 
States or that are going to be sold overseas, then we test the 
flocks; but if they are sold in the good old U.S. of A. within 
a State, no standard. Is that correct?
    Ms. Glavin. Yes.
    Senator Durbin. How can that give the consumers any 
confidence? Do you think it does?
    Ms. Glavin. I think that, as we have said this morning, it 
is necessary to look at a range of ways of addressing this 
problem, which is a very serious problem and which is not 
solved.
    Senator Durbin. Well, it is clear that it is not solved, 
and I think, frankly, that there are some things that we need 
to do.
    How many people at the Food and Drug Administration work on 
egg safety?
    Mr. Potter. We can get you a firmer number. I don't know 
that. It is a little hard to calculate because there--because 
of the way we operate, it is not 100 percent of very many 
people's time, but it is a portion----
    Senator Durbin. How many people devote part of their day to 
the issue of egg safety in America at the Food and Drug 
Administration?
    Mr. Potter. I will have to get back to you with that 
because it involves our field staff, and I just don't know what 
those numbers are.
    Senator Durbin. What did the General Accounting Office find 
when it looked into how many people at the various agencies--
U.S. Department of Agriculture and the Food and Drug 
Administration--were involved?
    Mr. Dyckman. Well, we know that there are about 102 
inspectors at FSIS.
    Senator Durbin. The U.S. Department of Agriculture?
    Mr. Dyckman. The U.S. Department of Agriculture. When I 
asked our staff how many people at FDA, I believe they could 
remember one person that has an egg responsibility on a full-
time basis.
    Mr. Secrist. Yes.
    Mr. Dyckman. There were other people involved, but that is 
all we could identify.
    Senator Durbin. And this agency, the Food and Drug 
Administration, which you found one person to be working on a 
full-time basis, has a responsibility for so-called shell eggs, 
those eggs that have not been broken. What is the volume of 
shell eggs in the United States each year?
    Mr. Dyckman. It is 70 percent of 67 billion.
    Senator Durbin. So it is in the 40 billion range?
    Mr. Dyckman. It is up there.
    Senator Durbin. I think in our conversation you also 
indicated that most of the FDA response you found to be after 
the fact. If there had been evidence of some foodborne illness, 
there was an attempt by the FDA to trace its source?
    Mr. Dyckman. Right. Their primary responsibility seems to 
be a trace-back responsibility, not a preventative type 
responsibility.
    Senator Durbin. That is a point which I think is very 
important here, and, Dr. Potter, I would like to give you a 
chance to respond to that as well. But every indication I 
have--first, let me say this: The Food and Drug Administration 
is one of my favorites. It is one of the most important 
agencies in the Federal Government. Dollar for dollar, we get 
more out of the FDA than virtually any agency, $1 billion a 
year we spend there, and we rely on them every time we turn 
around, for medical devices, pharmaceuticals, and a wide range 
of things. Such an important agency that we should pay more 
attention to it and devote more resources.
    Having said all that, after I read this GAO report, I have 
to conclude that the FDA view of its responsibility on egg 
safety issues is almost non-existent. It comes in after the 
fact, after someone is sick, to try to figure out what 
happened. The incidence of inspection by the FDA once every 10 
years suggests that this is an example that cries out for you 
to give it up, get out of the egg business. Let's give this to 
the FSIS and tell them we want it to be based on good public 
health science and try to put it under one roof. I just don't 
think the FDA has devoted the resources or attention to this 
issue that it should, and please respond.
    Mr. Potter. Thank you for your kind remarks about FDA. 
Regarding your criticisms, the first thing I would like to 
respond to is the one person working on eggs. Obviously, we 
have, as I said in my response, some portion of the work day of 
a large number of people who deal with eggs. We don't have the 
inspection force that USDA agencies have, and as the Chairman 
pointed out, very often we depend on collaborative arrangements 
with our partners in State agencies to do much of our 
inspection and field work.
    We trace back eggs from outbreaks to laying houses for a 
number of reasons. One, obviously, is a reaction to the 
outbreak to remove dangerous eggs from the marketplace, but 
more importantly, perhaps, is on a prospective basis, those 
investigations, 112 laying houses, 6.7 million hens during the 
last couple of years, teach us about those critical factors 
that introduce and maintain Salmonella in those laying houses 
so that we can come up with the performance standards for 
critical control points and establish proactive prevention 
programs.
    Senator Durbin. I will ask one last question and turn it 
back over to the Chairman. We have not mentioned pasteurization 
of eggs, which I had to have people explain to me. I thought if 
you have to heat an egg, doesn't it cook the egg, and it is my 
understanding that there is a process that can pasteurize an 
egg and, therefore, reduce if not eliminate the possibility of 
SE contamination even for shell eggs. Is that correct, Doctor?
    Mr. Potter. That is correct.
    Senator Durbin. And let me ask you this: Has the Food and 
Drug Administration developed any performance standards for 
shell egg pasteurization to suggest this is the answer to 
protect American consumers and give them peace of mind?
    Mr. Potter. The Food and Drug Administration as early as 
1990 recommended the use of pasteurized egg products, the 
broken-egg pasteurized products, in nursing homes and hospitals 
and for egg dishes that would be made from pooled eggs. So we 
are very strong proponents of pasteurizing technologies, and we 
are in our approach to food safety attempting to make our 
guidance and regulations technology driving so that we 
encourage new technologies that will produce things like in-
shell pasteurization.
    One of the comments we got back early in this SE problem 
from nursing home food service managers was that people in 
nursing homes really look forward to their sunny-side up egg 
and we were taking that away from them by requiring them to use 
pasteurized egg products. And we think that it is a tremendous 
advance to be able to pasteurize eggs in the shell so that we 
are not taking that one sunny spot out of the day of people in 
nursing homes.
    Senator Durbin. Let me try again. I understand what you 
have said. I understand that pasteurizing the processed eggs 
and broken eggs is a good consumer safety move. But your 
responsibility at the FDA is for shell eggs, too, and now we 
have the technology to pasteurize shell eggs. The question I 
asked you was: Have you developed at the FDA a performance 
standard for shell egg pasteurization? The same question.
    Mr. Potter. OK.
    Senator Durbin. Yes or no?
    Mr. Potter. Let me ask Dr. Troxell to give you a direct 
answer.
    Mr. Troxell. Thank you. We have advised AMS on the 
appropriate performance standard for in-shell pasteurization, a 
five-log reduction to use in their seal program they are 
developing. Also, this technology, while it is very promising, 
is still being pilot-tested, and the feasibility on 
implementing this technology on a national basis is still a 
question that we are very interested in pursuing.
    Senator Durbin. How many years have you been field testing?
    Mr. Troxell. We have not been field testing this 
technology. Several companies have been field testing the 
technology. Some of the systems have been rather crude in form. 
Others are now developing specific engineered systems to run 
this kind of in-shell pasteurization.
    As you pointed out, it is very easy to cook the egg, so one 
has to be very careful on the appropriate temperature.
    Senator Durbin. I am going to leave this area----
    Senator Voinovich. For the record, would you please give me 
your name and the title you have?
    Mr. Troxell. I am Dr. Terry Troxell, the Director of the 
Office of Plant and Dairy Foods and Beverages at the FDA.
    Senator Voinovich. Senator Durbin, we better----
    Senator Durbin. I am going to conclude. The last thing I 
will tell you is that in 1994, 5 years ago, the FDA set a 
standard for pasteurization of shell eggs, having learned that 
a commercial-scale pasteurization technology had been developed 
which inexpensively processed eggs without noticeably altering 
aesthetics or functionality.
    This is something consumers would like to know about, and 
they would like to have the protection of pasteurization. I 
don't know what the FDA is waiting for here. I really think 
that this is another example where, for some reason, much like 
the temperature question, things have gone on for years and 
years and years, and people have become sick, some have died, 
waiting for the Federal Government to meet its responsibility.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you.
    I would like to finish up with one question for all of you. 
We have seen a reduction in the number of SE cases, so 
obviously something is being done.
    For the record, where is most of the problem in terms of 
this? Is it on the farm? Is it in the processing and shipping? 
Or is it mostly generated in the institutions that use the 
eggs? For example, how many of these cases come up when we use 
eggs in a family? Is most of the problem in institutions?
    Mr. Potter. About half of outbreaks are related to 
institution--excuse me, to commercial food service, which would 
include restaurants, schools, and hospitals.
    Senator Voinovich. So half the problem is in the place 
where the eggs end up?
    Mr. Potter. Well, what the joint risk assessment showed us 
is that there are critical factors at each step in the chain, 
and there are opportunities for intervention at every step in 
the chain. I think that most of our early attempts have been 
focused on the laying house during egg production and at the 
kitchen because those are the two areas that we felt we could 
address first.
    Senator Voinovich. And you think that those two areas are 
where you have made the most inroads rather than the people 
that are at the institutions?
    Mr. Potter. Well, again, institutional food service, the 
kitchens there have been a major focus. The agency has 
collaborated on training videos for nursing home food service 
directors and medical directors who are getting ready to go out 
to nursing directors and food service directors with additional 
advisories for about 12,000 nursing homes, 80,000 day-care 
centers, 60,000 elementary schools, to get this information in 
the hands of not only those institutions, but in the hands of 
parents of young children, too, to hit at both ends of the age 
spectrum.
    Senator Voinovich. Thank you. We will now move on to our 
next panel.
    Senator Voinovich. I would like to ask the second panel to 
come forward. It is composed of experts on the issue of egg 
safety and representatives of the egg industry.
    Michael Jacobson, a Ph.D., is the Executive Director of the 
Center for Science in the Public Interest.
    Ms. Jill Snowdon, Ph.D., is the Director of Food Safety 
Programs at the Egg Nutrition Center.
    Keith Mussman, co-owner of Mussman's Back Acres, is from 
Illinois, and is appearing on behalf of the United Egg 
Producers.
    And Harold ``Butch'' DeVries, Executive Vice President and 
General Manager of Mallquist Butter and Egg Company, is also 
from Illinois.
    We would like to thank all of the witnesses for coming this 
morning.
    I again want to reiterate that your statements will be 
entered into the record. We would appreciate your limiting your 
testimony to no more than 5 minutes, and because we are running 
out of time, I am going to be pretty fastidious about sticking 
to that 5-minute rule.
    Senator Durbin, would you like an opportunity to introduce 
the witnesses from your State?
    Senator Durbin. Just very briefly, I am happy to have two 
witnesses with Illinois connections.
    Harold DeVries of Rockford, Illinois, married with two 
children and three grandchildren. His business started in 1930, 
and he came to work at Mallquist in his senior year in high 
school in 1955, 44 years ago. The business has nearly half a 
million chickens, produces and processes 11,000 cases of eggs a 
week for the Chicagoland area.
    Keith Mussman, from Back Acres, Inc., a family farm 
corporation with 1,200 grain farm and 240,000 laying hens. They 
produce, process, and distribute eggs in Illinois and Indiana. 
He was born and raised in Grant Park, which is in northeast 
Kankakee County, and lives there with his wife Barbara and 
three kids.
    Thanks for being here. Thank you all.
    Mr. Jacobson. I have to confess I am also from your great 
State of Illinois.
    Senator Durbin. We are everywhere.
    Senator Voinovich. Now I know why he wanted to have this 
hearing. [Laughter.]
    We have heard from the Federal agencies. This is 
interesting. Now we are going to be hearing from the people 
that are actually producing the eggs and also the public 
interests who are interested in protecting the citizens. We 
really appreciate your being here.
    We are going to start off with Dr. Jacobson, who is the 
Executive Director of the Center for Science in the Public 
Interest. Dr. Jacobson, we would like to hear from you.

TESTIMONY OF MICHAEL F. JACOBSON, PH.D.,\1\ EXECUTIVE DIRECTOR, 
           CENTER FOR SCIENCE IN THE PUBLIC INTEREST

    Mr. Jacobson. Thank you very much, Senator.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jacobson with an attachment 
entitled ``Scrambled Eggs,'' appears in the Appendix on page 80.
---------------------------------------------------------------------------
    CSPI is a non-profit consumer-advocacy organization that 
focuses on nutrition, food safety, and alcohol issues, and is 
supported by our 1 million members, including thousands in both 
Illinois and Ohio. Accompanying me today is Caroline Smith 
DeWaal, our Director of Food Safety, sitting behind me.
    Most consumers think that government watchdogs are ensuring 
that their food is safe. But any watchdogs that there were, 
were asleep while eggs contaminated with Salmonella grew into a 
national public health epidemic. Twenty or so years ago, a 
strain of Salmonella called enteritidis developed the ability 
to infect a chicken's ovaries and enter an egg before it is 
laid. The advent of that enterprising strain of bacterium means 
that it is no longer safe to eat runny eggs, taste cookie 
dough, or enjoy raw eggs in desserts and salads.
    Today, infected chickens lay an estimated 2.3 million 
contaminated eggs each year, any one of which could cause an 
illness or an outbreak of food poisoning. Since 1990, eggs have 
been directly linked to at least 123 separate outbreaks of food 
poisoning, mostly from SE. CDC has reported that since 1985 
there have been nearly 800 SE outbreaks largely associated with 
eggs and egg dishes.
    A recent risk assessment on eggs conducted by USDA said 
that SE-contaminated eggs have caused an average of 660,000 
illnesses and 330 deaths annually. While the CDC data from a 
few areas around the country suggest that the number of 
illnesses has declined, many more illnesses could be prevented 
with mandatory national programs.
    Some people say that the consumer should be the only 
critical control point. We say that consumers should be able to 
expect that eggs are safe.
    In 1986, CDC first identified SE in eggs as a public health 
problem when there was a food poisoning outbreak that sickened 
more than 3,000 people. Since then, unfortunately, no 
government agency has mounted an intelligent, comprehensive 
counter-attack on SE. There is no government-mandated SE 
testing program for eggs or laying flocks, no mandatory 
expiration date for shell eggs, no ban on repacking and re-
dating old eggs, no mandatory refrigeration of eggs throughout 
the distribution chain, and no label on egg cartons to alert 
consumers. The government has simply failed to take the 
necessary steps. Instead, the production of safe eggs has been 
stymied by overlapping responsibilities between FDA and USDA, 
irrational assignment of inspectors, and two agencies 
developing duplicative and competing SE control programs.
    Eggs provide one of the best illustrations of the need for 
a centralized Federal framework for food safety as proposed by 
Senator Durbin last week in the Safe Food Act.
    In 1997, in an effort to jump-start government efforts, 
CSPI petitioned the FDA to develop a mandatory on-farm control 
program for eggs modeled after an effective State program. CSPI 
also petitioned FDA to require a label on egg cartons alerting 
consumers to the risks and advising them to cook eggs 
thoroughly. There has been little visible action since CSPI 
petitioned the FDA, but we hope that this Federal Register 
announcement--that we haven't seen yet--will pave the way for 
action in the foreseeable future.
    The actions that the agency has mentioned today are 
important but not sufficient. In a critical omission, FDA and 
USDA have failed to utilize the single most effective public 
health measure, and that is on-farm SE monitoring and control. 
Though temperature controls and labeling help prevent illnesses 
from contaminated eggs, on-farm programs like HACCP would help 
prevent eggs from being contaminated in the first place.
    Under an on-farm program, manure and eggs would be tested 
for SE, and eggs from flocks that test positive would be 
diverted to pasteurization plants where they would be rendered 
harmless.
    Programs like that appear to be working in some States. We 
need such programs mandated as soon as possible throughout the 
country.
    Thank you very much for your attention to this important 
public health problem.
    Senator Voinovich. Thank you very much, Dr. Jacobson.
    We will now call on Jill Snowdon, Director of Food Safety 
Programs, Egg Nutrition Center.

TESTIMONY OF JILL A. SNOWDON, PH.D.,\1\ DIRECTOR OF FOOD SAFETY 
                 PROGRAMS, EGG NUTRITION CENTER

    Ms. Snowdon. Thank you very much. I serve as the Director 
of Food Safety Programs at the Egg Nutrition Center, which is a 
scientific and technical resource on nutrition and food safety 
of eggs and is a joint effort between the American Egg Board 
and the United Egg Producers.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Snowdon with attachments appears 
in the Appendix on page 122.
---------------------------------------------------------------------------
    The pursuit of egg safety should be considered a success 
story. The disease incidence of salmonellosis caused by 
Salmonella enteritidis, which we know as SE, has been on the 
decline in the United States. Multiple lines of evidence--taken 
from data collected over the last 3 to 8 years, from both 
national and regional levels, including both sporadic cases and 
outbreaks--show the same downward trend.
    SE outbreaks from both egg and non-egg sources have 
decreased from a high of 82 outbreaks in 1990 to 45 in 1998. 
Both the number of outbreaks and the number of people ill in 
the outbreak have decreased.
    The incidence of this disease is also recorded in CDC's 
Salmonella surveillance system and records a decline in 
salmonellosis caused by SE on a regional basis. This is also 
reflected in data from States such as California and 
Pennsylvania. They, on their recording basis, are also showing 
a decline.
    But perhaps the most compelling line of evidence for the 
decline is from CDC's FoodNet program which reports a 44 
percent decline in salmonellosis caused by SE over the last 3 
years. FoodNet data indicate 1.4 million cases of salmonellosis 
in the United States in 1997. Fifteen percent of the reported 
cases were caused by SE. One could estimate on these numbers 
than that there were 210,000 cases of salmonellosis caused by 
SE in the United States in 1997.
    These cases can result from a number of food and non-food 
sources, including eggs. There are a few other indicators of 
this decline, and they are included in my written testimony.
    It should be pointed out that illness from SE is only a 
fraction of all cases of salmonellosis and that eggs account 
for only a portion of all of those reported cases.
    There are a number of characteristics which make eggs 
unique, and the unique qualities of eggs should be--the 
biological and physical unique qualities of eggs need to be 
taken into consideration if we are developing effective 
intervention strategies. SE is associated with the infection of 
an internal organ. This is in contrast to all other foodborne 
microorganisms which are typically associated with feces and 
dust. This may dictate the type of control mechanisms that then 
become most effective.
    The egg, intended to be new life, has multiple properties 
that deter or destroy microorganisms. These properties are 
listed in the written testimony. I am going to concentrate on 
just one--that of the yolk membrane. If the yolk membrane is 
intact, SE will not grow because of an absence of nutrients. So 
the integrity of the yolk membrane is determined by time and 
temperature.
    Data from the United Kingdom indicate that SE will not grow 
in eggs for about 28 days if they have been stored at 60 
degrees Fahrenheit or less.
    However, the security of the intact egg vanishes once that 
egg is broken and its contents are mixed together. Once the 
natural antimicrobial properties are destroyed, the liquid egg 
has to be pasteurized, cooked thoroughly, or held chilled to 
ensure that microorganisms do not grow. Proper care of pooled 
eggs may be the most critical control point in the spectrum of 
egg safety.
    Senator Durbin, if I can make a small but important 
addition to your observation about the outbreak in Virginia, 
when I spoke with the investigator in charge of that outbreak 
investigation, he indicated that they closed the restaurant 
down as soon as they walked in because the food preparation 
practices were so abysmal. In that conversation with him, he 
indicated that they were using bare hands to handle sausage and 
bacon, and then those same bare hands were dipping toast into 
the egg batter mix. So the production of safe food needs to be 
accompanied by the safe preparation of food.
    The industry supports food service education. As an 
example, I would like to include this book, which is the 
American Egg Board's food service recommendations for eggs, as 
part of the record, please.\1\
---------------------------------------------------------------------------
    \1\ ``The Incredible Edible Egg, A Natural For Any Foodservice 
Operation,'' appears in the Appendix on page 151.
---------------------------------------------------------------------------
    To move food safety from production to preparation is part 
of the goal of protecting the food supply.
    The egg industry became aware of this problem, identified 
ways to combat it, and implemented actions. Now disease rates 
are dropping, and the egg industry is continuing to look for 
additional techniques to combat SE.
    I have appended a list of industry activities to the 
testimony and will only mention participation and quality 
assurance programs in my verbal testimony.
    Participation in industry-generated quality assurance 
programs continues to increase. All quality assurance programs 
in the egg industry have been based on the principles of Hazard 
Analysis Critical Control Points, which is the best technique 
to protect the food supply. In a survey of large producers in 
the United States, 93 percent were producing eggs under the 
guidelines of a quality assurance program. In a survey of the 
top six egg-producing States, it was estimated that between 85 
to 95 percent of the eggs in those States were produced under a 
quality assurance program. Microbiological analysis of manure 
samples from laying houses detects Salmonella enteritidis about 
3 percent of the time or less, further evidence that the 
presence of SE in laying houses is the exception, not the norm.
    In addition to diverting eggs as part of quality assurance 
programs, the organism is controlled by a variety of means and 
mechanisms dictated by a HACCP program.
    In summary, I would say that the pursuit of egg safety 
should be considered a success story. The public health 
community discovered the problem and placed much of the 
responsibility upon egg producers. After years of effort--
including extensive scientific research, debate, controversy, 
education, and changes in production and food preparation 
practices--the trend in disease incidence is downward.
    The egg industry has contributed substantively to this 
success. The recent decline in both outbreaks and sporadic 
cases has occurred in geographic areas where control measures 
have been most intense.
    But even though the fruit of man labors are beginning to 
ripen, there is still more work that needs to be done. The egg 
industry remains committed to continuing to take the steps that 
continue to make the rates drop.
    Thank you for inviting us to be part of this hearing and to 
be part of the process to ensure a safe food supply. Eggs are a 
nourishing, appealing, economical food that can continue to be 
enjoyed with assurance.
    Senator Voinovich. Thank you, Dr. Snowdon.
    Our next witness is Keith Mussman, co-owner, Mussman's Back 
Acres, representing the United Egg Producers.

TESTIMONY OF KEITH MUSSMAN,\1\ CO-OWNER, MUSSMAN'S BACK ACRES, 
             ON BEHALF OF THE UNITED EGG PRODUCERS

    Mr. Mussman. Mr. Chairman, and Senator Durbin, thank you 
for this opportunity to be here today. I believe it is an 
opportunity of a lifetime. And if I may add an aside, Senator 
Durbin, as a resident of Illinois, I am proud to be one of your 
constituents.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mussman appears in the Appendix 
on page 169.
---------------------------------------------------------------------------
    Senator Durbin. Thank you.
    Mr. Mussman. Good morning. My name is Keith Mussman, and I 
am a farmer producing eggs in Illinois. I have been in this 
business all of my life, having followed in the footsteps of my 
father who produced eggs and sold them in the Chicago area 
almost 50 years ago. I am testifying today on behalf of my 
industry organization, United Egg Producers, a national 
cooperative representing the interests of nearly 80 percent of 
all egg production nationwide.
    The egg industry considers food safety of paramount 
importance and is committed to enhancing the safety of shell 
eggs and egg products as is evidenced by the number of 
voluntary programs it has undertaken. For example, the egg 
industry through UEP has developed a national five-star quality 
assurance program. UEP has sponsored HACCP training workshops, 
published egg handling and preparation guidelines for food 
service employees and consumers, and supported FDA in 
determining that eggs, like other protein-rich foods, should be 
classified ``potentially hazardous.''
    Data were collected in a recent survey from 41 egg 
producers with 1 million or more laying hens and representing a 
total 125 million layers, which is approximately 50 percent of 
the Nation's total. Of those responding, 93 percent reported to 
be participating in one of the industry's egg quality assurance 
programs.
    The egg industry has initiated and implemented voluntary 
programs in response to every concern raised about food safety, 
while providing a wholesome food at a price comparable to or 
now even less than it was at the time my father was marketing 
eggs in Chicago 50 years ago.
    In 1998, FoodNet reported a 44 percent decline in 
Salmonellosis attributed to SE during the past 3 years. 
Likewise, the record on outbreaks--where two or more people 
became ill--shows a decline in illness that began in 1990.
    The Egg Products Inspection Act of 1970 provides uniform 
standards of quality, grade, condition, weight, and labeling 
for shell eggs in interstate commerce.
    Eggs which fail to meet grading standards are either 
diverted to the breaking market for pasteurization or deemed 
inedible for humans and processed for other uses such as pet 
foods.
    Shell eggs are cleaned in wash water of approximately 110 
degrees Fahrenheit, or 20 degrees higher than the egg 
temperature. A sanitizing solution is used in the washing 
process to enhance cleaning.
    Soon after processing, eggs are packaged and stored at 45 
degrees Fahrenheit.
    Most of the SE outbreaks associated with food have been a 
result of improper food handling and preparation. Holding raw 
egg batters at room temperature for extended times, using 
containers that go unwashed between uses, inadequate cooking, 
and inadequate cooling of leftovers have all contributed to 
foodborne outbreaks.
    It is a fact that a zero-risk or a sterile food supply is 
impossible.
    It is important that accurate information is communicated 
about risk and that sound food service educational information 
is provided to consumers, and particularly to the food service 
sector, so that everyone is well educated in safe food handling 
and understands their responsibilities for ensuring food 
safety.
    Just as there is no single control method that will 
eliminate all pathogens and toxins from the food chain, there 
is no single method for providing a 100 percent guarantee that 
foods will be free of pathogens.
    For the most part, the different agencies the producers and 
processors must deal with are doing a difficult job well. We as 
producers do not always agree with the actions taken by these 
agencies, of course, and when we disagree with them, we have 
not been shy about saying so.
    We have not had the GAO report long enough to study it in 
great detail. However, we are not convinced that the structure 
of our food safety agencies is the problem. They have different 
roles and different areas of expertise. To us, the real issue 
is what our public policy should be, not who implements them.
    Under the present system, we have already witnessed a 
significant decline in the number of cases of Salmonellosis 
since 1996. Coordination among agencies currently provides 
checks and balances.
    Congress, of course, should insist that this coordination 
be cooperative rather than competitive. Everyone's goal must be 
protecting food, not turf.
    I want to finish up with a few brief comments about the GAO 
report. I just got it yesterday, so I haven't had time to study 
it thoroughly. But I have looked at the recommendations GAO 
makes to the agencies.
    First, GAO recommends that FDA develop a model HACCP-based 
program for egg operations that could be adopted by the States. 
Our industry is implementing HACCP-type programs and is 
receptive to this recommendation. However, we would want to 
review any FDA proposals.
    Second, GAO recommends HACCP for egg-breaking plants. 
Generally, our processor members are supportive of HACCP 
regulation, and many have HACCP plans in place already. FSIS 
has said it intends to propose exactly this kind of system.
    Third, GAO recommends study of the costs and benefits of 
implementing rapid cooling techniques in egg processing and 
packing operations. We agree that research is a good idea, and, 
in fact, quite a bit has been done. However, commercial 
applications are still a ways off. The increased cost would be 
a concern, and as I understand it, the consumer would not 
benefit from a health standpoint.
    I do wish GAO had given the agencies a little more credit 
for working together in recent years, and I wish the positive 
steps our industry has taken had been highlighted more. We have 
not been followers. We have been leaders. I am proud of my 
business and of my industry for promoting a safe food supply. 
Thank you.
    Senator Voinovich. Thank you, Mr. Mussman.
    Our next witness is Harold ``Butch'' DeVries, Executive 
Vice President and General Manager of Mallquist Butter and Egg 
Company. Mr. DeVries.

 TESTIMONY OF HAROLD ``BUTCH'' DEVRIES, JR.,\1\ VICE PRESIDENT 
     AND GENERAL MANAGER, MALLQUIST BUTTER AND EGG COMPANY

    Mr. DeVries. Thank you, Mr. Chairman, Senator Durbin. Good 
morning. My name is Harold DeVries, and I am Vice President and 
principal stockholder at Mallquist Butter and Egg Company in 
Rockford. My company is a small agricultural business packaging 
about 4 million eggs per week from its one-half million laying 
chickens. We also distribute liquid and frozen eggs. I am here 
today at the request of Senator Durbin's office.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. DeVries appears in the Appendix 
on page 180.
---------------------------------------------------------------------------
    Food safety is very important to me personally, to my 
company, and to my industry. The reputation of my company is 
dependent upon quality, and we operate quality assurance 
programs to ensure a safe food supply. Mallquist Butter and Egg 
Company has instituted procedures to identify those critical 
control points from the farm through distribution for 
monitoring quality assurance, including cleaning and 
disinfecting the poultry house, rodent and pest control, proper 
egg washing, biosecurity, and refrigeration.
    Today I want to share some information about food safety 
action in the State of Illinois, discuss a task force that was 
established by the Department of Agriculture and Public Health 
to analyze food safety issues, and to recommend actions to 
resolve public concerns. As a producer, I had the honor of 
serving on that task force.
    During 1998, local health departments in Illinois 
investigated almost 1,200 complaints about food and illness. 
Microorganisms that caused the foodborne outbreaks could only 
be determined in one-third of the incidents; two-thirds of the 
outbreaks occurred because of unknown causes.
    While the causes and effects of foodborne diseases are 
better understood today, emerging risks need to be monitored. 
For example, consumers are changing; increasing numbers of 
elderly and others are at higher risk of severe illness; 
consumers spend less time cooking than ever before and may have 
received less instruction on food handling at home or school.
    Where the rubber meets the road is at the local level. More 
than 90 Illinois local health departments and 135 
municipalities provide food safety functions at the community 
level through inspections of restaurants, schools, caterers, 
and food stores for adherence to food safety requirements. They 
promote safe food-handling behaviors through educational 
efforts with school children, the general public, and the 
retail food industry.
    The HACCP system is widely accepted by the scientific 
community as the best known approach to enhancing the safety of 
foods. If HACCP systems are fully implemented, the 
effectiveness of the food safety system can be enhanced 
significantly, but absolute safety of potentially hazardous 
foods cannot be assured.
    The first recommendation from the task force is to broaden 
coordination and cooperation between the Illinois agencies with 
the respective Federal and local counterparts so that food 
safety programs are consistent and uniform.
    The second recommendation is for the development of a 
mechanism to ensure that regulated industries, government 
agencies, and the general public have a formal venue to advise 
the Departments of Agriculture and Public Health on issues of 
mutual concern relative to the food supply.
    The task force also recognizes the value of the Federal 
Government's FoodNet. In the last 3 years, as reported by 
FoodNet, the incidence of Salmonellosis associated with SE has 
decreased 44 percent. This is great news for the egg industry 
and the public. It suggests that efforts by the industry are 
having an effect.
    The egg industry has demonstrated responsiveness and 
cooperation with Federal, State, and local agencies in 
addressing the safety of shell eggs and egg products. A large 
number of agencies are involved in food safety. However, the 
expertise from these agencies addresses the issue of food 
safety from different and complementary perspectives. The egg 
industry has developed numerous programs and activities 
designed to enhance food safety and to educate the channel from 
farm to table in the proper production, transportation, 
processing, handling, and preparation of its products.
    Education and training can be one of the least costly yet 
most effective means to protect consumers from foodborne 
illness. Increasing individual awareness of food safety matters 
all through the food chain and motivating customers to adopt 
simple, yet important sanitation and food-handling behaviors is 
effective in improving food safety. Thank you.
    Senator Voinovich. Thank you, Mr. DeVries.
    I am pleased to hear that the industry is doing what it can 
to improve food safety, and I think it is logical that you 
would do that. You are in the business and you want people to 
buy your product, and if everyone thinks it is not safe, they 
are not going to buy eggs. So I am sure that you are trying to 
do your very best in your own operation to make sure it is as 
clean as possible because if it is not, it affects your 
business.
    I also would like to compliment the State of Illinois for 
looking at the local contribution to improve the situation. We 
were talking earlier when you were gone, Senator Durbin, that 
the States do have a role, the Federal people said that there 
is a definite role for States, and that they couldn't handle it 
without State involvement. I think that more activity in the 
area of best practices should be shared throughout the country 
to guarantee that things are going well on the farm and also 
that better food safety and preparation is being practiced.
    From your perspective, is the real problem in the food 
handling and preparation rather than on the farm? And we have 
talked about a reduction of some 40 percent. Where did the 
reduction take place, as a result of what? Does anyone want to 
comment on that?
    Mr. Mussman. I will jump in on that one. I think the 
reduction has come because of a better awareness both on the 
farm and in food handling on how to better handle eggs to make 
them safer. One statistic that has leapt out at me continually 
is science has pretty much stated that perhaps one out of 
20,000 eggs is contaminated with SE. If you extrapolate that 
for the number of eggs a person eats, 240 or 250 eggs a year, 
your chances of being exposed to a Salmonella-infected egg 
would be once in 84 years.
    Now, I realize if your wife is the one that got it, that is 
very important to you. But just keeping those statistics in 
mind, the risk is really minute.
    In answer to your original question, because those numbers 
are so minute, it is believed that most of the problems are at 
the food-handling end of the situation, as Dr. Snowdon 
mentioned on that other outbreak. Just plain mishandling of 
food.
    Ms. Snowdon. The industry recognizes it has a 
responsibility to produce the best and safest product it can, 
and it has been taking the kinds of steps to do that. So I 
think that certainly is one of the reasons that we have seen 
the decline, the concerted effort at the production level to 
ensure that the organism doesn't move into the hens to begin 
with, if it moves into the hen that it doesn't make it into the 
egg, if it makes it into the egg that it doesn't make it into 
the marketplace. So that is definitely a part of it, and 
industry is aware of that responsibility and fulfills that 
responsibility.
    I think the contrast that Mr. Mussman just pointed out is 
one that has also struck me from the viewpoint, and my point 
that once that shell is broken, that you have a phenomenal 
opportunity for growth and spread both. And so that no matter 
how clean the product an industry produces, it has got to be 
accompanied by appropriate food-handling practices.
    I think that we are seeing an increase in that, the 
FightBac campaign that we have at the national level, other 
national level educational programs the industry has put 
together in terms of appropriate food-handling practices. So I 
think that we are starting to work the entire spectrum, and I 
think that the benefits that now we are getting in the last 
couple of years are a result of working that entire spectrum.
    Senator Voinovich. Dr. Jacobson.
    Mr. Jacobson. I think the egg industry does deserve praise 
for the actions that it has been taking. It is great to hear of 
these individual reports from particular operations. But it has 
been a long time coming. And as Senator Durbin emphasized, 
government regulation has been a long time coming. Taking 8 
years to get out a rule on temperature is too long.
    Despite the regulations, the voluntary industry practices, 
I don't see handling labels on eggs warning somebody of a 
problem, saying cook it thoroughly. I haven't heard the egg 
industry voluntarily banning the practice of repacking. And I 
don't think the egg industry can do it because it is a diverse 
industry, not every company is part of the United Egg 
Producers. It is simply voluntary.
    The GAO report says the States have a patchwork of 
programs, presumably some better than others. But if the 
industry is doing as good a job as it is presenting, I don't 
see why it wouldn't mind having a mandatory Federal floor, a 
mandatory HACCP program dictated with parameters set by the FDA 
and USDA, so that would be the floor, and if some companies 
want to do better, fine. But at least have that mandatory floor 
so we are not waiting for voluntary industry action. And as we 
see in so many areas, voluntary action can be temporary action. 
It can be crisis-driven. We see it today, but if the pressure 
is off, things can go back to the old ways.
    That is why we would like to see some mandatory rules for 
mandatory Federal rules so that flocks are inspected for SE, 
and if a contaminated flock is discovered, eggs would be 
diverted to that pasteurization stream--not thrown out.
    I don't see why the egg industry would object to having a 
sensible program. This current system, as described by the GAO, 
is crazy. It goes from, at the upper left of the chart, USDA to 
FDA, then down to USDA, then back to FDA, then to either one of 
them, depending where it is. That is a crazy system. It needs 
to be rationalized. And it is especially dramatic when you have 
those 102 USDA inspectors inspecting pasteurized eggs that are 
the safest ones you can get. And FDA every 10 years inspecting 
fresh shell eggs. That doesn't make sense. And, of course, that 
is driven partly by the budgetary process where FDA money is 
FDA's, and USDA money is USDA's, and they can't mix. If you had 
a single food safety agency, as Senator Durbin and several 
other Senators and the GAO have recommended, I think we could 
have a more sensible and possibly even a more economical 
approach, and certainly we could get a timelier response to 
food safety problems.
    Senator Voinovich. Thank you. I pointed out earlier that 
each of the Federal agencies, under the Results Act, are 
supposed to be putting together performance standards and goals 
for their respective agencies. One of them requires 
coordination, and I would be interested to find out from the 
Department of Agriculture and from Health and Human Services 
just how much they have sat down with each other to talk about 
how they coordinate their activities and to identify holes that 
are there and how to respond to them, as you just pointed out 
in your testimony.
    Mr. Jacobson. I think for the country, though, it doesn't 
make sense to be stuck with a jerry-rigged system, not just for 
eggs but food safety in general, where the Commerce Department 
does fish, and the Treasury Department cares about alcoholic-
beverage safety. It doesn't know anything about health. It 
doesn't make sense, and there shouldn't have to be this 
complicated web of probably temporary jerry-rigged 
collaborative efforts when you could have one sensible and 
really seamless system for helping ensure the public safety.
    Senator Voinovich. Would anyone like to comment on that?
    Mr. DeVries. I would just like to make a comment and clear 
up a few things that you talked about earlier about the age of 
eggs before they were packaged and dating and those types of 
things. We are an off-line operation, so the eggs don't go into 
the egg washer and grader immediately, but within 2 days they 
are always packaged. And from that point on, there is a 30-day 
expiration date put on the eggs. In the State of Illinois, we 
have been doing that now for, I think, over 25 years.
    You talked about refrigeration. We have been refrigerating 
eggs in Illinois since I became employed there at 60 degrees, 
and when this was brought up in 1991 about the 45-degree 
temperature, we then instituted that also, and we have been 
carrying that out.
    So, from our standpoint, the State of Illinois has a great 
egg inspection program that followed through with the 
Department of Agriculture and the Health Department.
    Senator Voinovich. Mr. Mussman.
    Mr. Mussman. I concur.
    Senator Voinovich. Do any of you think that we need to have 
improved regulation on the Federal level in terms of your 
industry? You start smiling at that question. But have you, as 
an organization, made recommendations to any of the Federal 
agencies involved on how they could improve their operations?
    Mr. Mussman. I think one of our concerns has been the 
cooperation between the agencies, but we sincerely feel that 
that is a management problem. It is not a problem having it in 
the different organizations. It is just there are organizations 
themselves sorting out who is going to be in control.
    United Egg Producers has taken a position for 21-day 
expiration dates. Even though there is no law prohibiting 
repacking of eggs, UEP's position for years has been to not do 
it. Obviously, there are some renegades out there that will. I 
think not just the egg industry, but other industries are the 
same way. You have got some guys that don't play by the rules.
    We feel sincerely that we have been leaders in the food 
safety issue, and we have had tremendous cooperation with FDA, 
USDA, and FSIS on the issue. Speaking from--I am going to take 
off my egg producer hat and put on my taxpayer hat right now. I 
told my father I was coming out here and explained the reason, 
and he said, ``They are just going to add another layer of 
bureaucracy.'' From the grass-roots issue, that is a tremendous 
concern. Government never gets smaller. You can take all these 
things away from the other departments and create--I don't care 
what you call it. It is going to add costs to the government, 
and we sincerely believe that it is not going to make food 
safer.
    Senator Voinovich. Well, I appreciate your comments. I know 
that has been one of the things that you hear from folks about 
a new agency, that it becomes kind of a large burgeoning agency 
that makes it more difficult for people to get answers. But you 
don't have any complaints that you have FDA, then you have 
USDA, and then you have the State agencies all visiting your 
places? No complaints from your people about the multiplicity 
of agencies that are regulating your operations? This makes 
sense?
    Mr. DeVries. From my standpoint, we are inspected on a 
quarterly basis by USDA. Of course, our State of Illinois 
Department of Agriculture is in there quite often. They are 
always in there on an unannounced basis all the time. The local 
health department shows up also. We have no problems with any 
of those things. We work with them. We are happy to work with 
all of them.
    One of the other issues that was brought up is we do have 
on our egg cartons ``keep refrigerated.'' We do have safe 
cooking and handling labels inside the egg cartons also. And we 
do no repacking of eggs, never have done, never will do. There 
is no reason for that. Those eggs just belong to the breakers 
for further processing.
    So from our standpoint, we really have no problems.
    Senator Voinovich. Thank you very much. I am out of time, 
and I will turn it over to Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    Mr. DeVries, let me follow up on that because I think you 
are giving us valuable testimony about the real world out 
there. You said that you just don't repackage eggs. That has 
been a standard at your business for a long time, has it been?
    Mr. DeVries. That is correct.
    Senator Durbin. And, Mr. Mussman, is it the same standard 
at yours?
    Mr. Mussman. Same standard. Everything goes either in 
restricted eggs and if it is broken, it goes in a barrel. If it 
is cracked, it goes to restricted for further processing.
    Senator Durbin. How did you happen to adopt that standard? 
Is that something that just made common sense to you, or did 
you have a bad experience?
    Mr. Mussman. In our particular instance--I heard him 
talking before--we are not a USDA-inspected plant. We fall in 
that 70 percent. We were a small business, but it has grown 
over the years. We were never required to so we haven't. But 
there is one thing that goes on our label that takes precedence 
over any USDA label, and that is Mussman's Back Acres. So it 
was common sense. We can't afford to put a product out there 
that may come back and bite us.
    I know there are a lot of other egg producers in the same 
boat. It is not worth the risk.
    Senator Durbin. But let me just ask you this question: If 
we had a problem in Illinois with eggs, wouldn't it really be 
to your benefit if everyone is held to kind of a basic standard 
so that the bad actors don't get off the hook? You are two 
responsible egg producers and packagers. What I am driving at 
is this: You take pride in your label. Both of you do. But if 
we had an egg problem, people would perhaps stop buying your 
product for a while, too, uncertain as to whether or not you 
were the good guys or the bad guys.
    When we establish a standard where consumers have some 
confidence, doesn't that help all egg producers?
    Mr. DeVries. I would say yes to that effect. Absolutely it 
would help all egg producers. Just like when we had the scare 
with the cholesterol things years ago, we saw our business go 
down. Now we got rid of that, and our business--the number of 
eggs eaten by consumers has gone up each year. We have seen 
things come down even though we are eating more eggs. It would 
be great to have everybody play by the same rules.
    Senator Durbin. Well, Mr. Mussman, let me ask you a 
question. Mr. DeVries talked about the fact that it is about 2 
days between the laying of eggs and the packaging. Is that your 
experience as well?
    Mr. Mussman. Our operation happens to be in-line. We 
process 7 days a week, and the eggs come directly from the 
birds and they go right into the carton.
    Senator Durbin. So that is hours?
    Mr. Mussman. They are 5 hours old when they get to the 
cartons.
    Senator Durbin. And that, again, is a standard which you 
have put into your business place, is it not? It is not 
mandated by anyone, is it?
    Mr. Mussman. That decision was based somewhat on economics 
rather than just for a pure freshness situation. It just worked 
out for us to do it that way.
    Senator Durbin. But there is no regulation or law along 
that line?
    Mr. Mussman. No.
    Senator Durbin. Now, our State of Illinois is one of the 17 
States, incidentally, in the Nation which requires a labeling 
on the egg cartons of an expiration date or a sell-by date, and 
we have sell by 30 days. But you mentioned 21 days as being a 
standard. Is that the UEP?
    Mr. Mussman. That number has been bandied around, and UEP 
has gone on record with a position that they would support 21 
days if that was to come into effect.
    Senator Durbin. And that basically--does it start from the 
belief that the older the egg, the less likely it is going to 
taste good and it might even be less safe as it gets older?
    Mr. Mussman. That, and it doesn't appear as well on the 
plate. There are a number of reasons. But safety is certainly 
one of them.
    Senator Durbin. So it goes back to my earlier point. If I 
am traveling around the country and I am buying eggs in a 
restaurant here, there, or any other place, if there is a 
standard, a reasonable standard which your industry says helps 
us all, all egg producers--it strikes me that that helps you 
because you are playing by good rules, rules that you have 
assumed for your own business to make sure that when you put 
your name on a carton you feel proud. Is that not correct?
    Mr. Mussman. That is totally correct, and we would dream 
that everyone would play by the same rules. But what it still 
ultimately comes down to is, if I produce an egg that is 5 
hours old when I put it in the carton and I deliver it tomorrow 
to the local restaurant, and they break it in a bucket and 
leave it sit out at room temperature for 13 hours, then it 
becomes a food-handling problem.
    Senator Durbin. And that is a good point, and I want to go 
back to Dr. Snowdon's point about the restaurant in Richmond, 
Virginia. I have not identified the chain, but I am going to 
now. It is IHOP. And let me tell you what the Vice President 
for Operations for the Eastern United States, John Jordan, said 
in the Richmond newspaper of June 12, 1999. He said he was 
aware that the egg wash the restaurant used to prepare French 
toast had received a positive reading for Salmonella bacteria. 
He went on to say--in an effort to prevent further problems, 
Jordan said the restaurant will now be using processed and 
pasteurized eggs for its French toast batter rather than eggs 
in the shell.
    For the record, I do not disagree with the premise that 
safe food handling is an important element in this. But in this 
situation, for whatever reason, there was a contaminated egg 
mixture which Mr. Jordan has acknowledged was part of the 
problem and said that they were going to steps to deal with it.
    Can we stay for a moment on this question of 
pasteurization, which was this restaurant's chain response? Do 
you pasteurize shell eggs in your operation, Mr. DeVries?
    Mr. DeVries. No, we don't.
    Senator Durbin. Mr. Mussman, do you?
    Mr. Mussman. No.
    Senator Durbin. How common is that in your experience in 
the State of Illinois? How many egg producers actually 
pasteurize shell eggs?
    Mr. DeVries. I believe it may only be one or two people in 
the whole country, and it has just been----
    Senator Durbin. Just starting out?
    Mr. Mussman. It is the new technology.
    Senator Durbin. New technology.
    Mr. DeVries. The thing about using the pasteurized eggs at 
the restaurants, too, that is not going to stop an illness if 
those aren't handled properly.
    Senator Durbin. Proper handling is part of the deal.
    Mr. DeVries. The whole thing.
    Senator Durbin. Absolutely. Now, how about the management? 
How about the testing of your breeding flock? Are they tested 
for Salmonella? Has that happened, Mr. Mussman?
    Mr. Mussman. We buy 18-week-old pullets, so we have nothing 
to do with the breeding business. But we are assured that our 
breeding flocks are tested from the chickens that we get.
    Senator Durbin. OK. The same thing from Mr. DeVries?
    Mr. DeVries. We grow our own birds, so we buy our birds a 
day old. And we have an SE testing program all the way through.
    Senator Durbin. You are the good guys here. I am really 
glad you are here, and I am glad you are from Illinois. That 
makes my job a little easier, Mr. Chairman, in regard to that.
    I want to say to you, Mr. Mussman, if I thought that what 
we are about here, what I am about here is adding another layer 
of bureaucracy, I couldn't look you in the eye. What I am 
trying to do is to eliminate a few layers of bureaucracy. As 
you heard, this ball is being handed off from agency to agency, 
and we really think if it is put under one roof that really the 
buck is going to stop at some agency that really coordinates 
the efforts here and makes the product a little safer and the 
cost a little cheaper for taxpayers. And if it doesn't achieve 
that, it is going nowhere in Washington, D.C., and I certainly 
am not going to push for it. So you can tell your father and 
friends that that is something we are going to try to work on.
    Let me, if I can for a minute, talk about FoodNet, and, Dr. 
Jacobson, as I understand FoodNet, it is a Center for Disease 
Control survey of seven States, if I am not mistaken, where 
they went and took samples to reach this conclusion about a 44 
percent decline in SE.
    Mr. Jacobson. Let me let Caroline Smith DeWaal take over 
here.
    Senator Durbin. OK.
    Ms. DeWaal. The FoodNet data that concluded that there was 
a 40 percent reduction was taken from just a few areas of the 
country. It was about eight sites, if I believe correctly, 
including a number of States. It represents about 7 percent of 
the U.S. population.
    And if I just might add, the----
    Senator Durbin [presiding]. For the record, please state 
your name.
    Ms. DeWaal. It is Caroline Smith DeWaal, Director of Food 
Safety for the Center for Science in the Public Interest. The 
actual report that CDC issued where they mentioned the decrease 
in Salmonella, they say that the reasons for the decline are 
unclear. They do say that the implementation of these egg 
quality assurance programs with--and this is critical--
microbial testing and egg diversion in some States may have 
contributed to the decline. And then they also mentioned that 
some of the improvements that are happening in the meat and 
poultry industry also may have contributed to it because right 
now there is an intensive effort in the poultry industry to 
reduce Salmonella levels to meet the new HACCP standards for 
poultry plants.
    Senator Durbin. I have it that the CDC project, FoodNet, 
tested in Connecticut, Minnesota, Oregon, selected counties in 
California, Georgia, Maryland, and New York. Interestingly 
enough, although there was a 44 percent decline in these 
sampled States and sampled localities, they found some wide 
variation. For example, the rate of evidence of Salmonella 
infection was more than 7 times higher in Maryland than it was 
in Georgia and New York, and they can't explain the differences 
there. But that appears to be part of the uncertainty about 
what we draw from this conclusion. It is certainly a lot better 
than a 44 percent increase. We have got to acknowledge that. So 
something is moving in the right direction, and I hope this 
hearing and some of the things that we have talked about today 
can bring us further along that course.
    Let me conclude--the Chairman had to leave the hearing--by 
thanking Mr. DeVries and Mr. Mussman for coming here, and as I 
said, for whatever reason, your selection was the right one by 
the United Egg Producers because, as we listened to the 
standards which you have voluntarily imposed on yourself 
because of your pride in the product that you are selling, I am 
sure it gives consumers a good feeling that there are some good 
players out there, and probably the majority of egg producers 
are good players. I just want to get back to my original point 
here, and that is that we are embarking on a new era where food 
safety is an extraordinary issue for a lot of people. I 
literally had breakfast--I can't tell you the man's name or his 
company, but one of the major producers of food in this 
country. I had breakfast with him last year, and I said I think 
food safety is a big issue of the future. And he kind of 
chuckled, and he said, ``Senator, if that is all you have to 
worry about, why are you worrying at all? We have got the 
safest food supply in the world.''
    Well, I can't quarrel with that, but I will tell you within 
a month or two that man was hit with a food safety crisis in 
his company that cost him literally hundreds of millions of 
dollars. I think he takes a new attitude toward food safety. 
There is a vulnerability out there where, unfortunately, the 
bad actors are going to give some good actors a bad name if we 
are not careful. And for the consumer's sake and for the sake 
of egg producers who are doing the right job and using the 
right standards, I hope we have some sort of a code of conduct, 
an enforceable code of conduct, that we say this will stand by 
it. If it has UEP on the label, or whatever it is, you know 
that you are going to get a product that is a quality product 
whether you shop in Illinois or California, Florida or New 
York. That is what I think we should be moving toward.
    I thank you all for your contribution today. It has been a 
great hearing, and you have helped to make it so.
    The record will remain open for 5 days after the conclusion 
of the hearing. Thank you very much.
    [Whereupon, at 12:27 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


[GRAPHIC] [TIFF OMITTED] T9578.001

[GRAPHIC] [TIFF OMITTED] T9578.002

[GRAPHIC] [TIFF OMITTED] T9578.003

[GRAPHIC] [TIFF OMITTED] T9578.004

[GRAPHIC] [TIFF OMITTED] T9578.005

[GRAPHIC] [TIFF OMITTED] T9578.006

[GRAPHIC] [TIFF OMITTED] T9578.007

[GRAPHIC] [TIFF OMITTED] T9578.008

[GRAPHIC] [TIFF OMITTED] T9578.009

[GRAPHIC] [TIFF OMITTED] T9578.010

[GRAPHIC] [TIFF OMITTED] T9578.011

[GRAPHIC] [TIFF OMITTED] T9578.012

[GRAPHIC] [TIFF OMITTED] T9578.013

[GRAPHIC] [TIFF OMITTED] T9578.014

[GRAPHIC] [TIFF OMITTED] T9578.015

[GRAPHIC] [TIFF OMITTED] T9578.016

[GRAPHIC] [TIFF OMITTED] T9578.017

[GRAPHIC] [TIFF OMITTED] T9578.018

[GRAPHIC] [TIFF OMITTED] T9578.019

[GRAPHIC] [TIFF OMITTED] T9578.020

[GRAPHIC] [TIFF OMITTED] T9578.021

[GRAPHIC] [TIFF OMITTED] T9578.022

[GRAPHIC] [TIFF OMITTED] T9578.023

[GRAPHIC] [TIFF OMITTED] T9578.024

[GRAPHIC] [TIFF OMITTED] T9578.025

[GRAPHIC] [TIFF OMITTED] T9578.026

[GRAPHIC] [TIFF OMITTED] T9578.027

[GRAPHIC] [TIFF OMITTED] T9578.028

[GRAPHIC] [TIFF OMITTED] T9578.029

[GRAPHIC] [TIFF OMITTED] T9578.030

[GRAPHIC] [TIFF OMITTED] T9578.031

[GRAPHIC] [TIFF OMITTED] T9578.032

[GRAPHIC] [TIFF OMITTED] T9578.033

[GRAPHIC] [TIFF OMITTED] T9578.034

[GRAPHIC] [TIFF OMITTED] T9578.035

[GRAPHIC] [TIFF OMITTED] T9578.036

[GRAPHIC] [TIFF OMITTED] T9578.037

[GRAPHIC] [TIFF OMITTED] T9578.038

[GRAPHIC] [TIFF OMITTED] T9578.039

[GRAPHIC] [TIFF OMITTED] T9578.040

[GRAPHIC] [TIFF OMITTED] T9578.041

[GRAPHIC] [TIFF OMITTED] T9578.042

[GRAPHIC] [TIFF OMITTED] T9578.043

[GRAPHIC] [TIFF OMITTED] T9578.044

[GRAPHIC] [TIFF OMITTED] T9578.045

[GRAPHIC] [TIFF OMITTED] T9578.046

[GRAPHIC] [TIFF OMITTED] T9578.047

[GRAPHIC] [TIFF OMITTED] T9578.048

[GRAPHIC] [TIFF OMITTED] T9578.049

[GRAPHIC] [TIFF OMITTED] T9578.050

[GRAPHIC] [TIFF OMITTED] T9578.051

[GRAPHIC] [TIFF OMITTED] T9578.052

[GRAPHIC] [TIFF OMITTED] T9578.053

[GRAPHIC] [TIFF OMITTED] T9578.054

[GRAPHIC] [TIFF OMITTED] T9578.055

[GRAPHIC] [TIFF OMITTED] T9578.056

[GRAPHIC] [TIFF OMITTED] T9578.057

[GRAPHIC] [TIFF OMITTED] T9578.058

[GRAPHIC] [TIFF OMITTED] T9578.059

[GRAPHIC] [TIFF OMITTED] T9578.060

[GRAPHIC] [TIFF OMITTED] T9578.061

[GRAPHIC] [TIFF OMITTED] T9578.062

[GRAPHIC] [TIFF OMITTED] T9578.063

[GRAPHIC] [TIFF OMITTED] T9578.064

[GRAPHIC] [TIFF OMITTED] T9578.065

[GRAPHIC] [TIFF OMITTED] T9578.066

[GRAPHIC] [TIFF OMITTED] T9578.067

[GRAPHIC] [TIFF OMITTED] T9578.068

[GRAPHIC] [TIFF OMITTED] T9578.069

[GRAPHIC] [TIFF OMITTED] T9578.070

[GRAPHIC] [TIFF OMITTED] T9578.071

[GRAPHIC] [TIFF OMITTED] T9578.072

[GRAPHIC] [TIFF OMITTED] T9578.073

[GRAPHIC] [TIFF OMITTED] T9578.074

[GRAPHIC] [TIFF OMITTED] T9578.075

[GRAPHIC] [TIFF OMITTED] T9578.076

[GRAPHIC] [TIFF OMITTED] T9578.077

[GRAPHIC] [TIFF OMITTED] T9578.078

[GRAPHIC] [TIFF OMITTED] T9578.079

[GRAPHIC] [TIFF OMITTED] T9578.080

[GRAPHIC] [TIFF OMITTED] T9578.081

[GRAPHIC] [TIFF OMITTED] T9578.082

[GRAPHIC] [TIFF OMITTED] T9578.083

[GRAPHIC] [TIFF OMITTED] T9578.084

[GRAPHIC] [TIFF OMITTED] T9578.085

[GRAPHIC] [TIFF OMITTED] T9578.086

[GRAPHIC] [TIFF OMITTED] T9578.087

[GRAPHIC] [TIFF OMITTED] T9578.088

[GRAPHIC] [TIFF OMITTED] T9578.089

[GRAPHIC] [TIFF OMITTED] T9578.090

[GRAPHIC] [TIFF OMITTED] T9578.091

[GRAPHIC] [TIFF OMITTED] T9578.092

[GRAPHIC] [TIFF OMITTED] T9578.093

[GRAPHIC] [TIFF OMITTED] T9578.094

[GRAPHIC] [TIFF OMITTED] T9578.095

[GRAPHIC] [TIFF OMITTED] T9578.096

[GRAPHIC] [TIFF OMITTED] T9578.097

[GRAPHIC] [TIFF OMITTED] T9578.098

[GRAPHIC] [TIFF OMITTED] T9578.099

[GRAPHIC] [TIFF OMITTED] T9578.100

[GRAPHIC] [TIFF OMITTED] T9578.101

[GRAPHIC] [TIFF OMITTED] T9578.102

[GRAPHIC] [TIFF OMITTED] T9578.103

[GRAPHIC] [TIFF OMITTED] T9578.104

[GRAPHIC] [TIFF OMITTED] T9578.105

[GRAPHIC] [TIFF OMITTED] T9578.106

[GRAPHIC] [TIFF OMITTED] T9578.107

[GRAPHIC] [TIFF OMITTED] T9578.108

[GRAPHIC] [TIFF OMITTED] T9578.109

[GRAPHIC] [TIFF OMITTED] T9578.110

[GRAPHIC] [TIFF OMITTED] T9578.111

[GRAPHIC] [TIFF OMITTED] T9578.112

[GRAPHIC] [TIFF OMITTED] T9578.113

[GRAPHIC] [TIFF OMITTED] T9578.114

[GRAPHIC] [TIFF OMITTED] T9578.115

[GRAPHIC] [TIFF OMITTED] T9578.116

[GRAPHIC] [TIFF OMITTED] T9578.117

[GRAPHIC] [TIFF OMITTED] T9578.118

[GRAPHIC] [TIFF OMITTED] T9578.119

[GRAPHIC] [TIFF OMITTED] T9578.120

[GRAPHIC] [TIFF OMITTED] T9578.121

[GRAPHIC] [TIFF OMITTED] T9578.122

[GRAPHIC] [TIFF OMITTED] T9578.123

[GRAPHIC] [TIFF OMITTED] T9578.124

[GRAPHIC] [TIFF OMITTED] T9578.125

[GRAPHIC] [TIFF OMITTED] T9578.126

[GRAPHIC] [TIFF OMITTED] T9578.127

[GRAPHIC] [TIFF OMITTED] T9578.128

[GRAPHIC] [TIFF OMITTED] T9578.129

[GRAPHIC] [TIFF OMITTED] T9578.130

[GRAPHIC] [TIFF OMITTED] T9578.131

[GRAPHIC] [TIFF OMITTED] T9578.132

[GRAPHIC] [TIFF OMITTED] T9578.133

[GRAPHIC] [TIFF OMITTED] T9578.134

[GRAPHIC] [TIFF OMITTED] T9578.135

[GRAPHIC] [TIFF OMITTED] T9578.136

[GRAPHIC] [TIFF OMITTED] T9578.137

[GRAPHIC] [TIFF OMITTED] T9578.138

[GRAPHIC] [TIFF OMITTED] T9578.139

[GRAPHIC] [TIFF OMITTED] T9578.140

[GRAPHIC] [TIFF OMITTED] T9578.141

[GRAPHIC] [TIFF OMITTED] T9578.142

[GRAPHIC] [TIFF OMITTED] T9578.143

[GRAPHIC] [TIFF OMITTED] T9578.144

[GRAPHIC] [TIFF OMITTED] T9578.145

[GRAPHIC] [TIFF OMITTED] T9578.146

[GRAPHIC] [TIFF OMITTED] T9578.147

[GRAPHIC] [TIFF OMITTED] T9578.148

[GRAPHIC] [TIFF OMITTED] T9578.149

[GRAPHIC] [TIFF OMITTED] T9578.150

[GRAPHIC] [TIFF OMITTED] T9578.151

[GRAPHIC] [TIFF OMITTED] T9578.152

[GRAPHIC] [TIFF OMITTED] T9578.153

[GRAPHIC] [TIFF OMITTED] T9578.154

[GRAPHIC] [TIFF OMITTED] T9578.155

[GRAPHIC] [TIFF OMITTED] T9578.156

[GRAPHIC] [TIFF OMITTED] T9578.157

[GRAPHIC] [TIFF OMITTED] T9578.158

[GRAPHIC] [TIFF OMITTED] T9578.159

[GRAPHIC] [TIFF OMITTED] T9578.160

[GRAPHIC] [TIFF OMITTED] T9578.161

[GRAPHIC] [TIFF OMITTED] T9578.162

[GRAPHIC] [TIFF OMITTED] T9578.163

[GRAPHIC] [TIFF OMITTED] T9578.164

[GRAPHIC] [TIFF OMITTED] T9578.165

[GRAPHIC] [TIFF OMITTED] T9578.166

[GRAPHIC] [TIFF OMITTED] T9578.167

[GRAPHIC] [TIFF OMITTED] T9578.168

[GRAPHIC] [TIFF OMITTED] T9578.169

[GRAPHIC] [TIFF OMITTED] T9578.170

[GRAPHIC] [TIFF OMITTED] T9578.171

[GRAPHIC] [TIFF OMITTED] T9578.172

[GRAPHIC] [TIFF OMITTED] T9578.173

[GRAPHIC] [TIFF OMITTED] T9578.174

[GRAPHIC] [TIFF OMITTED] T9578.175

[GRAPHIC] [TIFF OMITTED] T9578.176

[GRAPHIC] [TIFF OMITTED] T9578.177

[GRAPHIC] [TIFF OMITTED] T9578.178

[GRAPHIC] [TIFF OMITTED] T9578.179

[GRAPHIC] [TIFF OMITTED] T9578.180

[GRAPHIC] [TIFF OMITTED] T9578.181

[GRAPHIC] [TIFF OMITTED] T9578.182

[GRAPHIC] [TIFF OMITTED] T9578.183

[GRAPHIC] [TIFF OMITTED] T9578.184

[GRAPHIC] [TIFF OMITTED] T9578.185

[GRAPHIC] [TIFF OMITTED] T9578.186

                                  <all>

</pre></body></html>
